No. _________
______________
IN THE SUPREME COURT OF THE UNITED STATES
_______________
KEITH A. DAVIS,

Petitioner,
v.
STATE OF WASHINGTON,

Respondent.

_______________
PETITION FOR WRIT OF CERTIORARI TO
THE SUPREME COURT OF WASHINGTON
_______________
*David B. Koch
Nielsen Koch
1908 E. Madison St.
Seattle, WA 98122
(206) 623-2373
kochd@nwattorney.net
*Member, Supreme Court Bar
and Counsel of Record

I.

QUESTION PRESENTED

Where a pro se defendant is absent from a criminal trial,
whether due to misconduct or voluntary choice, is the trial court
constitutionally required to appoint counsel rather than proceed
with an empty defense table?

-i-

II.

TABLE OF CONTENTS

Page

IV.

PETITION FOR WRIT OF CERTIORARI ........................ 1

V.

OPINIONS BELOW ........................................................... 1

VI.

JURISDICTION ................................................................. 1

VII.

CONSTITUTIONAL PROVISIONS INVOLVED ............. 1

VIII: STATEMENT OF THE CASE ........................................... 2
A. The Empty Defense Table............................................. 3
B. The Direct Appeal ......................................................... 4
IX.

REASONS FOR GRANTING THE WRIT ......................... 5
GIVEN THE UNSETTLED STATE OF THE LAW,
THIS COURT SHOULD CLARIFY WHEN IT IS
CONSTITUTIONALLY PERMISSIBLE TO PROCEED
WITH AN EMPTY DEFENSE TABLE IN A CRIMINAL
TRIAL.................................................................................. 5
a. The Integrity of Criminal Trial Proceedings Hinges
on the Adversarial Process. .......................................... 6
b. It Remains Unsettled Whether the Sixth Amendment
Requires Appointment of Counsel When A Pro Se
Defendant Has Been Removed or is Otherwise Absent
from the Courtroom....................................................... 8
c. Conflicting Caselaw From Around the Nation
Reveals Confusion Regarding When It Is
Constitutionally Permissible to Proceed with An
Empty Defense Table. ................................................. 11

X.

CONCLUSION ................................................................. 26

- ii -

III.

TABLE OF AUTHORITIES

Page

WASHINGTON CASES
State v. Davis,
195 Wash.2d 571, 461 P.3d 1204 (2020).……....1, 5, 22, 23, 24, 25
State v. Davis, 6 Wash.App.2d 43, 429 P.3d 534 (2018).....1, 4, 25
State v. DeWeese, 117 Wash.2d 369, 816 P.2d 1 (1991) ............ 17
FEDERAL CASES
Clark v. Perez, 510 F.3d 382 (2d Cir. 2008), cert. denied, 555 U.S.
823, 129 S.Ct. 130 (2008) ...................................................... 17, 23
Davis v. Grant, 532 F.3d 132 (2d Cir. 2008) ................ 6, 9, 13, 20
Faretta v. California, 422 U.S. 806 (1975). ............................ 9, 14
Gideon v. Wainwright, 372 U.S. 335 (1963) ................................. 5
Herring v. New York, 422 U.S. 853 (1975)................................... 7
Illinois v. Allen, 397 US 337 (1970) .................................. 5, 10, 14
Mackey v. Montrym, 443 US 1 (1979) .......................................... 7
Mayberry v. Pennsylvania, 400 U.S. 455 (1971) ........................ 10
McKaskle v. Wiggins, 465 U.S. 168 (1984)............................. 9, 14
Penson v. Ohio, 488 U.S. 75(1988)................................................ 7
Pointer v. Texas, 380 U.S. 400 (1965) .......................................... 5
Strickland v. Washington, 466 U.S. 668 (1984) ........................... 7
Thomas v. Carroll, 581 F.3d 118 (3d Cir. 2009). ........................ 19

- iii -

TABLE OF AUTHORITIES CONTINUED
Torres v. U.S., 140 F.3d 392 (2d. Cir. 1998) ................... 16, 18, 23
United States v. Cronic, 466 U.S. 648 (1984)......................... 8, 24
United States v. Ductan, 800 F.3d 642 (4th Cir. 2015) ....... 12, 15
United States v. Jennings, 855 F.Supp. 1427 (MD Pa 1994) .... 16
United States v. Mack, 362 F.3d 597 (9th Cir. 2004) .... 12, 13, 21
United States v. Margarita Garcia, 906 F.3d 1255 (11th Cir.
2018), cert. denied sub nom. Garcia v. United States, 139 S. Ct.
2027, 204 L. Ed. 2d 229 (2019) ................................................... 13
United States v. Pina, 844 F.2d 1 (1st Cir.1988) ....................... 15
Wheat v. United States
86 U.S. 153, 160 (1988) ........................................................... 7, 24
OTHER JURISDICTIONS
Commonwealth v. Tejada, 188 A.3d 1288 (Pa. Super. 2018)..... 12
Jones v. State, 449 So.2d 253, 257 (Fla.1984) ............................ 16
People v. Carroll, 140 Cal.App.3d 135, 189 Cal.Rptr. 327 (Ct.
App. 1983).............................................................................. 12, 21
People v. Cohn, 160 P.3d 336, 343 (Colo. App. 2007);................ 12
People v. Ramos, 5 Cal.App.5th 897, 210 Cal.Rptr.3d 242
(Ct. App. 2016)............................................................................. 12
Saunders v. State, 721 S.W.2d 359 (Tex. App.1986).................. 12
State v. Eddy, 68 A.3d 1089 (R.I. 2013).......................... 18, 22, 23

- iv -

TABLE OF AUTHORITIES CONTINUED
State v. Lacey, 364 Ore. 171, 431 P.3d 400 (2018),
cert. denied, 139 S. Ct. 1590, 203 L. Ed. 2d 745 (2019) ............. 21
State v. Menefee, 268 Or.App. 154, 341 P.3d 229 (2014)..... 12, 15
RULES, STATUTES AND OTHER AUTHORITIES
28 U.S.C. § 1257 ............................................................................ 1
U.S. CONT. AMEND. XIV ............................................................ 2
U.S CONST. AMEND. VI ..........1, 4, 5, 6, 8, 11, 13, 15, 16, 18, 25

-v-

INDEX TO APPENDICES
Appendix A Washington Supreme Court Decision on Direct
Appeal
Appendix B Washington Court of Appeals Decision on Direct
Appeal
Appendix C Superior Court Order: “Findings of Fact and
Conclusions of Law Regarding Defendant
Voluntarily Absenting Himself from Trial Due to
His Disruptive Behavior”

- vi -

IV.

PETITION FOR WRIT OF CERTIORARI

Petitioner Keith A. Davis, though appointed counsel,
respectfully requests this Court issue a writ of certiorari to
review the judgment of the Washington Supreme Court denying
his direct appeal and affirming his conviction.
V.

OPINIONS BELOW

The Washington State Supreme Court decision in State v.
Davis reported at 195 Wash.2d 571, 461 P.3d 1204 (2020) is
attached as Appendix A. The Washington State Court of
Appeals decision is reported at 6 Wash.App.2d 43, 429 P.3d 534
(2018) is attached as Appendix B.
VI.

JURISDICTION

The Washington Supreme Court issued its decision on
April 30, 2020. This Court has jurisdiction under 28 U.S.C. §
1257(a).
VII.

CONSTITUTIONAL PROVISIONS INVOLVED

The Sixth Amendment of the United States Constitution
provides:
In all criminal prosecutions, the accused shall enjoy
the right to a speedy and public trial, by an
impartial jury of the State and district wherein the

-1-

crime shall have been committed, which district
shall have been previously ascertained by law, and
to be informed of the nature and cause of the
accusation; to be confronted with the witnesses
against him; to have compulsory process for
obtaining witnesses in his favor, and to have the
Assistance of Counsel for his defence.
The Fourteenth Amendment, section one, of the United
States Constitution provides:
All persons born or naturalized in the United
States, and subject to the jurisdiction thereof, are
citizens of the United States and of the state
wherein they reside. No state shall make or enforce
any law which shall abridge the privileges or
immunities of citizens of the United States; nor
shall any state deprive any person of life, liberty, or
property, without due process of law; nor deny to
any person within its jurisdiction the equal
protection of the laws.
VIII: STATEMENT OF THE CASE
This case presents an important federal question: Under
what circumstances is it constitutionally permissible to proceed
with an empty defense table when a pro se defendant is either
removed or absents himself from the courtroom? The answer to
this question remains unsettled by this Court, leading to a
multitude of divergent and, at times, conflicting opinions from
both federal and state courts across the nation.

-2-

A. The Empty Defense Table
Davis moved to proceed pro se in his criminal trial. On
numerous occasions, he asked for standby counsel. These
requests were uniformly denied. Davis was told that standby
counsel was not constitutionally required and raised ethical
issues.
Davis represented himself without incident during the
first part of his trial, but the situation deteriorated when Davis
returned to his table after taking a bathroom break to find his
water had been removed. Davis pounded his fists on the table
and screamed that he needed the water due to his medical
conditions. The court refused to provide water, believing it was
causing Davis to use the bathroom too often. Davis worked
himself into a tirade, screaming profanities at the court. At one
point, an irate Davis yelled “You can hold your trial without me.
How’s that?”
The Court warned Davis, if he continued, he would be
removed from the trial. Davis continued to scream and curse,
and the trial judge ordered jail officers to remove him. With an
empty defense table, the prosecutor examined two key witnesses

-3-

for the State before trial ended that day. Davis was never
permitted to cross examine these witnesses.1
B. The Direct Appeal
On appeal, Davis asserted he was wrongly denied his
Sixth Amendment right to representation when the trial court
removed him from the courtroom at a critical stage of his trial
and proceeded with an empty defense table. 429 P.3d at 542.
The Court of Appeals unanimously held Davis’ involuntary
removal constituted a forfeiture of his right to selfrepresentation and his right to be present; however, Davis did
not forfeit his right to representation and cross-examination. Id.
at 544-45. The Court of Appeals noted there were several
alternatives the trial court should have explored before
proceeding with an empty defense table, and it remanded for a
new trial. Id. at 544, n. 7.
In a split decision, the Washington Supreme Court
reversed. Id. at 1212. The majority held Davis was not
involuntarily removed but, instead, had voluntarily absented
himself when he shouted, “You can hold your trial without me.
1

The King County Superior Court’s removal order is attached as
Appendix C.

-4-

How’s that?” Id. at 1211. It concluded Davis also voluntarily
waived his right to be present and his right to representation.
Id.
By contrast, the dissent concluded Davis’ bluster did not
constitute a voluntary waiver of his right to be present. Instead,
it found the record established Davis was involuntarily removed
from the courtroom. Id. at 1213-16. It would have held that the
trial court was constitutionally required to consider less
restrictive alternatives before proceeding with an empty defense
table. Id. at 116-17.
IX.

REASONS FOR GRANTING THE WRIT

GIVEN THE UNSETTLED STATE OF THE LAW, THIS
COURT SHOULD CLARIFY WHEN IT IS
CONSTITUTIONALLY PERMISSIBLE TO PROCEED WITH
AN EMPTY DEFENSE TABLE IN A CRIMINAL TRIAL.
The Sixth Amendment’s right to counsel, right to confront
one's accusers, and right to be present at trial are fundamental
to our system of justice. Illinois v. Allen, 397 US 337, 338
(1970); Pointer v. Texas, 380 U.S. 400, 404 (1965); Gideon v.
Wainwright, 372 U.S. 335, 344 (1963). These rights are the
hallmarks of fair criminal proceedings. Not only do they serve

-5-

to protect the defendant’s right to challenge the government’s
case, they also further the government’s interest in maintaining
the integrity of the truth-finding process and the judiciary’s
interest ensuring criminal trials appear fair. Davis v. Grant,
532 F.3d 132, 142-44 (2d Cir. 2008).
These rights and interests are jeopardized when the
defense table sits empty at a criminal proceeding. Id. Yet, it
remains unsettled whether a trial may proceed without counsel
or the defendant present after a pro se defendant absents
himself (either voluntarily or though misconduct) from his own
trial. The caselaw addressing this issue has become a confusing
patchwork of varying standards and results. Consequently,
guidance from this Court is needed to clarify under what
circumstances a criminal trial may be held with an empty
defense table and still maintain the fairness envisioned under
the Sixth Amendment.
a. The Integrity of Criminal Trial Proceedings Hinges on
the Adversarial Process.
A fair trial is an adversarial trial. “The very premise of
our adversary system of criminal justice is that partisan

-6-

advocacy on both sides of a case will best promote the ultimate
objective that the guilty be convicted and the innocent go free.”
Herring v. New York, 422 U.S. 853, 862 (1975). Truth and
fairness are best discovered by vigorous representation and by
“powerful statements on both sides of the question.” Penson v.
Ohio, 488 U.S. 75, 84 (1988). The adversary system of criminal
justice provides the “best means of ascertaining truth.” Mackey
v. Montrym, 443 US 1, 13 (1979).
Courts have an independent interest in ensuring that
criminal trials are fair and accurate. Wheat v. United States
486 U.S. 153, 160 (1988). “In every case the court should be
concerned with whether, despite the strong presumption of
reliability, the result of the particular proceeding is unreliable
because of a breakdown in the adversarial process that our
system counts on to produce just results.” Strickland v.
Washington, 466 U.S. 668, 696 (1984).
A key driver of a robust adversarial process is the right to
cross-examination. Any significant diminution of the right to
cross examination “calls into question the ultimate integrity of
the fact-finding process and requires that the competing interest

-7-

be closely examined.” Chambers v. Mississippi, 410 U.S. 284,
295 (1973) (internal quotes and citation omitted). “When a true
adversarial criminal trial has been conducted…the kind of
testing envisioned by the Sixth Amendment has occurred. But if
the process loses its character as a confrontation between
adversaries, the constitutional guarantee is violated.” United
States v. Cronic, 466 U.S. 648, 656–57 (1984). When either
party is absent, this undercuts the integrity of the adversarial
system.
Both the Sixth Amendment and society’s interest in fair
and accurate criminal proceedings appear to weigh heavily
against permitting criminal proceedings to go forward with an
empty defense table. Yet, this important constitutional issue
remains unsettled, and some courts have reasoned otherwise.
b. It Remains Unsettled Whether the Sixth Amendment
Requires Appointment of Counsel When A Pro Se
Defendant Has Been Removed or is Otherwise Absent
from the Courtroom.
When a defendant seeks to represent himself at trial, this
often creates a tension between a defendant’s interest in
personally developing his own defense and society’s interests in

-8-

ensuring there is a rigorous truth-finding process. Davis, 532
F.3d at142-44. This tension becomes particularly acute when a
pro se defendant is no longer present at trial due either to his
voluntary absence or his removal for misconduct. Unfortunately,
prior decisions from this Court do not indicate whether the
constitution requires appointment of counsel under these
circumstances.
This Court has provided some constitutional parameters
regarding the right to self-representation. Striking a balance
between the right to self-representation and society’s interest in
a strong adversarial process, this Court has explained that a
defendant has the right to proceed without the assistance of
counsel “provided only that he … is able and willing to abide by
[the] rules of procedure and courtroom protocol.” McKaskle v.
Wiggins, 465 U.S. 168, 173 (1984) (emphasis added). Even over
objection by the accused, a court may appoint standby counsel to
be available to represent the accused where termination of the
defendant's self-representation is necessary. Faretta v.
California, 422 U.S. 806, 834 (1975).

-9-

This Court has recognized the wisdom of appointing
standby counsel for pro se defendants as a means of
safeguarding society’s interest in a fair and reliable fact-finding
process. In his concurring opinion in Mayberry v. Pennsylvania,
400 U.S. 455, 468 (1971), Chief Justice Burger noted the trial
court had been wise to appoint standby counsel who could step
in if the pro se defendant's conduct required his removal from
the courtroom. He explains the societal interests that are served
by such an appointment:
In every trial there is more at stake than just the
interests of the accused; the integrity of the process
warrants a trial judge's exercising his discretion to
have counsel participate in the defense even when
rejected. A criminal trial is not a private matter;
the public interest is so great that the presence and
participation of counsel, even when opposed by the
accused, is warranted in order to vindicate the
process itself. The value of the precaution of having
independent counsel, even if unwanted, is
underscored by situations where the accused is
removed from the courtroom under Illinois v. Allen.
Id.
These prior holdings suggest that once a defendant
chooses not to follow procedural rules and courtroom protocol, he
may lose his right to self-representation and appointment of

- 10 -

counsel may be necessary to protect the integrity of the truthfinding process. However, one fundamental question remains
unanswered: At what point is appointment of counsel required
to preserve the adversarial process that lays at the heart of our
justice system and is fundamental under the Sixth Amendment?
c. Conflicting Caselaw From Around the Nation Reveals
Confusion Regarding When It Is Constitutionally
Permissible to Proceed with An Empty Defense Table.
As discussed below, there is much confusion regarding if
and when a criminal trial may proceed with an empty defense
table. This is an important matter that stretches far beyond
Davis’ personal interests and strikes at the core of our system of
jurisprudence. Hence, this Court’s guidance on this issue is
necessary to ensure criminal trials are fair and their outcomes
are reliable measures of the truth.
Several courts have concluded a pro se defendant cannot
be permitted to subvert the integrity of the trial process and
force an empty defense table through his own misconduct.
Instead, once the defendant has forfeited his right to selfrepresentation through misconduct, appointment of counsel is
constitutionally necessary. E.g., United States v. Ductan, 800

- 11 -

F.3d 642, 654 (4th Cir. 2015) United States v. Mack, 362 F.3d
597, 601 (9th Cir. 2004); Commonwealth v. Tejada, 188 A.3d
1288, 1290-92 (Pa. Super. 2018); People v. Ramos, 5 Cal.App.5th
897, 210 Cal.Rptr.3d 242 907 n.5 (2016); State v. Menefee, 268
Or. App. 154, 341 P.3d 229, 244-47 (2014); People v. Cohn, 160
P.3d 336, 343 (Colo. App. 2007); Saunders v. State, 721 S.W.2d
359, 363 (Tex.Ct.App.1986); People v. Carroll, 140 Cal.App.3d
135, 137-38, 189 Cal.Rptr. 327 (1983).
Mack exemplifies the typical analytical approach taken in
this line of cases. 362 F.3d at 599-601. There, the pro se
defendant's behavior at trial was contemptuous and
demonstrative of his unwillingness or inability to abide by
directions from the district court. Id. The court warned Mack if
his misconduct continued, he would be removed from the
courtroom, his questioning of witnesses would cease, and he
would not be permitted to present argument to the jury. Id.
Eventually, the district court removed Mack from the courtroom.
Id. Although Mack was permitted to return at some point, he
was precluded from questioning witnesses and from presenting
closing argument to the jury. Id. “In practical effect, Mack had

- 12 -

been removed as his own counsel and nobody stepped in to fill
the gap.” Id. at 601.
The Ninth Circuit found Mack had been denied his Sixth
Amendment right to representation. Id. It acknowledged that a
trial court may properly remove a disruptive defendant. Id. at
600. It then explained, while a contumacious defendant may
forfeit his right to self-representation, he does not forfeit his
right to representation. Id. at 601-02. The Ninth Circuit
ultimately held Mack was denied his Sixth Amendment right to
representation, and the error was structural.2 Id. at 603.
Four years later, the Second Circuit reached the same
legal conclusion as Mack but delved more deeply into why a
defendant cannot forfeit his right to counsel through his own
misconduct. Davis v. Gant, 532 F.3d at 141-50. It explained
that an empty defense table jeopardizes the integrity of the factfinding process and the judiciary’s interest in assuring trials
appear fear. Id. at 143-44. “We are hard-pressed to think of a
circumstance more likely to make an observer question the
Recently, the Eleventh Circuit held that proceeding with an empty defense
table is not structural error. United States v. Margarita Garcia, 906 F.3d
1255, 1264 (11th Cir. 2018), cert. denied sub nom. Garcia v. United States,
139 S. Ct. 2027, 204 L. Ed. 2d 229 (2019).
2

- 13 -

fairness of a trial than the sight of an empty defense table.” Id.
at 144.
The Second Circuit suggested that this Court’s decisions
in Illinois v. Allen, 397 U.S. 337 (1970), Faretta v. California,
422 U.S. 806 (1975) and McKaskle v. Wiggins, 465 U.S. 168
(1984), might be read as mandating the appointment of standby
counsel when a pro se defendant is removed due to misconduct.
Davis, 532 F.3d at 142-43. However, it called out for
clarification from this Court. “We believe that the contrasting
arguments of the parties in this case, as well as the divergence
of thought between courts that have previously considered the
issue, indicate that this is an area in which further guidance
from the Supreme Court would be useful.”3 Id. at 144.
The Colorado Court of Appeals in People v. Brante, 232
P.3d 204, 208 (Colo. App. 2009), has taken an entirely different
approach under McKaskle and Faretta. It reasoned that under
those decisions, the constitution may require an empty defense
table when a pro se defendant is ejected or absents himself from
Because the issue was considered in the limited scope of review in habeas
cases, the Second Circuit affirmed Davis’ conviction. However, the court’s
reasoning remains persuasive, and its call for guidance from this Court is
still pertinent.
3

- 14 -

the courtroom. Id. Placing particular emphasis on the right to
self-representation, the Brante court suggested that, unless a
defendant expressly requests appointment of counsel during his
voluntary absence or removal, a court’s sua sponte appointment
of counsel may constitute a violation of the defendant’s right to
self-representation. Id. Given this, it concluded the defendant’s
Sixth Amendment rights were not violated when the trial
proceeded to conviction despite the empty defense table.
The Brante case appears to be an outlier. Indeed,
numerous courts have commented on the wisdom of appointing
standby counsel to step in if a defendant is absent, thereby
avoiding an empty defense table. See, e.g., United States v.
Ductan, 800 F.3d 642, 654 (4th Cir. 2015) (recognizing that
when a pro se defendant engages in misconduct “the proper
course of action is to revoke the defendant's right to selfrepresentation and appoint counsel’); United States v. Pina, 844
F.2d 1, 15 (1st Cir.1988) (suggesting that a trial judge “employ
his or her wisdom to appoint standby counsel” to represent a
defendant who is removed or discharges counsel); State v.
Menefee, 341 P.3d at 246 (explaining, to avoid running afoul of

- 15 -

the Sixth Amendment, “it is advisable for a trial court to appoint
advisory counsel for a defendant whom the court suspects will be
disruptive so that the court can appoint that lawyer as counsel if
the defendant can no longer represent himself”); Jones v. State,
449 So.2d 253, 257 (Fla.1984) (recognizing when a court is faced
with a difficult pro se defendant who might disrupt proceedings
it is prudent to appoint standby counsel, even over the
defendant's objection).4
Rather than wrestle with the issue of appointing counsel
for an unwilling pro se defendant, several courts have attempted
to maintain self-representation and protect the adversarial
nature of the trial. These courts have arranged for the pro se
defendant to remotely monitor what happens in the courtroom
so he or she has an opportunity to cross examine and otherwise
present a defense should they choose to return to the courtroom.
See, e.g., Torres, 140 F.3d at 402-03 (permitted defendant to
listen to proceedings remotely and return if desired); United
States v. Jennings, 855 F.Supp. 1427, 1445-46 (MD Pa 1994)

As this case shows, the King County Superior Court generally does not
follow this wisdom and disfavors appointment of standby counsel. 429 P.3d
at 537.
4

- 16 -

(affirming conviction of pro se defendant who was removed for
misconduct but was able to listen to the proceedings from
another location and transmit messages to the court); State v.
DeWeese, 117 Wash.2d 369, 816 P.2d 1, 4 (1991) (holding the
trial court did not err by proceeding after removing pro se
defendant who was placed in an office to monitor the
proceedings and was invited to return for cross examination).
On a different tangent, several courts have concluded trial
courts must respect a pro se defendant’s strategic choice to leave
the defense table empty regardless of the societal interest in
maintaining a vigorous adversarial process. These courts
suggest the adversarial process has not completely broken down
because the empty defense table is actually the product of the
defendant’s self-representation. Thus, as unwise it may be to
leave a defense table empty, the pro se defendant’s autonomous
choice in how to present his or her defense must prevail. See,
e.g., Clark v. Perez, 510 F.3d 382 (2d Cir. 2008), cert. denied,
555 U.S. 823, 129 S.Ct. 130 (2008) (finding no error where pro se
defendant chose to absent herself as part of a political protest
defense and leave an empty defense table); Torres v. U.S., 140

- 17 -

F.3d 392, 402 (2d. Cir. 1998) (same); State v. Eddy, 68 A.3d 1089,
1096-97 (R.I. 2013) (affirming where pro se defendant chose to
leave an empty defense table to prevent prejudicing the jury
against himself).
The reasoning supporting this line of case is set forth
most clearly by the Rhode Island Supreme Court in State v.
Eddy. There, the defendant dismissed his attorney and chose to
represent himself. 68 A.3d at 1092-96. After the defendant
dismissed two more attorneys whom the court appointed as
standby counsel, the court denied the defendant’s request for
appointed of counsel on the morning of trial. Id. In response,
the defendant told the court, “I don’t want to be in the courtroom
so the trial may proceed in my absence.... I ask I be allowed to be
removed from the courtroom during this process because I don’t
want to cause a situation of a forced removal.” Id. 68 A.3d at
1096.
The trial court explained to Eddy that he had a Sixth
Amendment right to be present and, if he waived that right, he
would not be represented by counsel and would also be waiving
his right to cross-examination. Id. at 1097. After Eddy assured

- 18 -

the court that he understood the consequences and reiterated
his desire to leave, the trial court allowed him to absent himself
from trial and proceeded with an empty defense table. Id. at
1096-97.
The Rhode Island Supreme Court determined Eddy had
knowingly and voluntarily waived both his right to be present
and right to active representation. Id. at 1103-04. It considered
this a valid exercise of his self-representation. Id. at 1108. It
reasoned that, under these circumstances, proceeding with an
empty defense table was no different than having a pro se
defendant sit silently at the defense table, which is a pro se
defendant’s prerogative as director of his own defense. Id.
In contrast, the Third Circuit has indicated it is
constitutionally necessary to appoint counsel regardless of
whether a pro se defendant chooses to leave the defense table
empty. Thomas v. Carroll, 581 F.3d 118, 126 (3d Cir. 2009).
Thomas was representing himself. As trial was set to begin, he
voluntarily chose to leave the courtroom and forgo a defense.
Trial proceeded to conviction with an empty defense table. Id. at
121-22.

- 19 -

Operating within the bounds of its limited scope of review
in habeas cases, the Third Circuit affirmed the conviction.
However, it expressed its serious concern that the criminal trial
proceeded with an empty defense table. Id. at 126-27.
Extending the Second Circuit’s reasoning in Davis v. Gant into
the context of a pro se defendant’s voluntary absence, the Third
Circuit expressed its concern with what it believed was “a
complete breakdown of the adversarial process” at the
defendant's trial. Id. at 126. The court signaled that “[i]f this
appeal had come before us on a direct appeal from a federal
court and presented with a defendant who waived his right to
counsel and then absented himself from the courtroom, we
might hold differently.” Id. at 127.
In his concurring opinion, Judge Pollak took this
statement one step further, declaring that “[u]nder the
hypothetical circumstances posited by the court, I not only might
hold differently, I would hold differently.” Id. at 127 (Pollak, J.,
concurring). Considering the constitutional issues at stake and
this Court’s previous decisions, he concluded that he would hold
judges must appoint counsel when a pro se defendant chooses to

- 20 -

leave the courtroom. Id. Under Judge Pollak’s approach, the
important societal interest in a vigorous adversarial process
may not be held hostage by a pro se defendant who forces an
empty defense table either through misconduct or a voluntary
absence.
On the other end of the spectrum, the Oregon Supreme
Court recently held there is no need to appoint counsel even
where a defendant is involuntarily removed for misconduct.
State v. Lacey, 364 Ore. 171, 431 P.3d 400, 406-10 (2018), cert.
denied, 139 S. Ct. 1590, 203 L. Ed. 2d 745 (2019). The Lacey
court held that an unruly pro se defendant may impliedly waive
his right to representation if he has been explicitly warned that
his misconduct will result in (1) removal and (2) an empty
defense table. Id. It held there is no constitutional requirement
to appoint counsel under these circumstances, and the trial may
proceed without anyone sitting at the defense table. Id.
The Oregon Supreme Court distinguished the Carroll and
Mack line of cases “because it does not appear that the
defendants in those cases were warned, prior to waiving their
right to counsel, that, if they proceeded pro se and were removed

- 21 -

from the courtroom for misconduct, their trials would continue
without anyone present to represent them.” Id. 409-10.
Grounding its reasoning in the Eddy line of cases, the Lacey
court asserted, after a pro se defendant has been appropriately
warned, the trial court may properly infer a defendant who
engages in misconduct has made a tactical choice to proceed
without any representation. Id. at 406, 410. Lacey represents a
departure from Eddy, however, in that it is implying a waiver
from misconduct, where Eddy involved an express waiver after
the defendant offered a valid tactical reason for leaving an
empty defense table.
In petitioner’s case, the Washington Supreme Court has
taken a new, and arguably more extreme, approach regarding
when it is constitutionally acceptable to proceed with an empty
defense table in a criminal proceeding. 461 P.3d at 1210-11.
Recasting Davis’ involuntary removal as a “voluntary absence,”
the majority essentially holds that a pro se defendant may waive
his right to representation and provoke an empty defense table
when, in an irate outburst, he screams, “You can hold your trial
without me.” Id. However, Davis’ bluster did not possess the

- 22 -

hallmarks of a legitimate act of self-representation or a valid
waiver.5
This case represents a significant departure from those
cases in which courts have tolerated an empty defense table as
an unavoidable consequence of self-representation. Unlike in
Torres and Clark, Davis never suggested he was voluntarily
choosing to absent himself for political protest reasons. Unlike
in Eddy, the trial court did not engage in a calm, thoughtful, and
thorough colloquy, and Davis never revealed a thoughtful reason
for leaving the defense table empty. Unlike in Lacey, Davis was
not warned before he made the choice to proceed pro se that, if
he were removed for misconduct, the trial would proceed with an
empty defense table. Unlike in Deweese, Davis was neither
provided an opportunity to cool off while observing the trial
remotely after removal nor permitted the opportunity to return
to the courtroom for cross-examination.

As the dissent explains, the majority’s conclusion that Davis voluntarily
absented himself from the courtroom is suspect. 461 P.3d at 1213-15.
Instead, the trial court’s written findings establish Davis was in fact removed
due to his disruptive behavior. Id. Indeed, the trial court itself stated in its
written findings that Davis was told upon his return to the courtroom the
next day that if he acted out “he would again be removed from the trial
court.” Appendix C.
5

- 23 -

Particularly problematic, the majority shows no concern
for the constitutional and societal interests that arise when
there is an empty defense table in a criminal proceeding. It does
not make even a passing reference to this Court’s prior decisions
underscoring the judiciary’s interest in ensuring that criminal
trials are fair and explaining the essential role of the adversarial
system in obtaining just and accurate results. E.g., Wheat, 486
U.S. at 160; Cronic, 466 U.S. at 656–57; Chambers, 410 U.S. at
295.
The majority, instead, myopically fixates on the fact that,
if counsel had been appointed or if other alternatives were
employed, Davis merely would have obtained what he wanted –
some form of delay. 461 P.3d at 1211, n. 6. As Chief Justice
Stevens points out in her dissent, however, “requiring the trial
court to consider alternatives is not about what Mr. Davis
sought—it is about what our constitution and precedents
require.” Id. at 1217, n. 2.
Both Chief Justice Stevens and the Washington Court of
Appeals noted there were many alternatives the trial court could
have considered before proceeding without someone defending

- 24 -

Davis. Id. at 1216-17; 429 P.3d at 543, n. 7. However, the
majority did not even see the need to address such alternatives,
failing to appreciate the significant societal interests in fair
trials and accurate verdicts that are inherent in our adversarial
system. As a result, the Washington Supreme Court’s decision
in Davis’ case represents a low point in the body of case law
addressing if and when it is constitutionally permissible to
proceed with an empty defense table.
In sum, criminal defendants, the government, the courts,
and the public have a strong interest in vigorous advocacy by
both parties in criminal proceedings in order to effectuate a
reliable and accurate truth-finding process. The Sixth
Amendment provides for a robust adversarial system centered
around the defendant’s right to mount a defense and crossexamine his accusers. This does not happen when neither the
defendant nor counsel are present.
Unfortunately, current case law delineating when it is
constitutionally permissible to proceed in a criminal trial with
an empty defense table consists of a patchwork of doctrinal
approaches that has produced inconsistent and uncertain results.

- 25 -

The Washington Supreme Court’s decision here represents a low
point in this unsettled area of federal law. This Court’s
guidance on this constitutional issue is necessary to ensure
criminal trials both appear and are, indeed, fair. Hence, Davis
asks this Court to grant review.
X.

CONCLUSION

Davis respectfully requests this Court grant his Petition
for a Writ of Certiorari.

DATED this 28th day of July, 2020.
Respectfully submitted,

_______________________
DAVID B. KOCH
Nielsen Koch
1908 E. Madison St.
Seattle, WA 98122
(206) 623-2373
kochd@nwattorney.net
Member, Supreme Court
Bar and Counsel of
Record

- 26 -

i

i

Stpte v. Davis, !95 Wash.2d 571 (2020)
461 P.3d 1204

ig5 Wash.:zd 57i
Supreme Court of Washington.

Attorneys and Law Firms
James Morrissey W.hisman, Ann Marie Suimners, Raul

Robert Martinez, King County Prosecutor's Office, 516 3rd
STATE of Washington, Petitioner,

Ave. Ste. W554, Seattle, WA, 98104-2362, for Petitioner.

V.

Keith Adair DAVIS , Respondent.

Daiia M. Nelson, Eric .J. Nielsen, Nielsen Koch, PLLC, 1908

E. Madison st., Seattle, WA, 98122-2842, for Respondent.
No. g6663-o

l

Opinion
MADSEN, J.

I

Argued 10/10/2019
Filed April 30, 2020
Synopsis
Background: Defendant was convicted in the Superior
Court, King County, .Julie A. Spector, J., of possession of
stolen vehicle and possession of a controlled substance.
Defendant appealed. The Court of Appeals, Chun, J ., 429 P.3d
534, affimied in part, reversed in part, and remanded, and the
state appealed.

"573 !1 Keith Davis argues that his right to be present at
trial was violated when the trial court found that he voluntarily
absented himself, he was removed from the courtroom, and

the State proceeded to examine witnesses witbout Davis
in attendance. Because the trial judge did not abuse her
discretion in finding that Davis's absence was voluntary, we
reverse the Court of Appeals and affirm the trial court.

BACKGROtJND

Holdings : The Supreme Court, Madsen, J., ell banc, held that:

defendant's insistence throughout trial that he did not wish to
be there, as well as his dismptive behavior, demonstrated that
he voluntarily and knowingly left the courtroom, waiving his
nght to be present at trial;
trial court did not abuse its discretion in finding that defendant
waived his right to be present at trial; and
trial court did not err vvhen it did not continue proceedings or
appoint counsel in defendant's voluntary absence.

Reversed.

Stept+ens, J., dissented and filed opinion in which McClorid,
J., and Fairhurst, c..i., joined.

*"l206 Appeal from King County Superior Couit, Docket
No: 14-l-00794-s, Honorable Julie A. Spector, Judge

!2 In January 2014, Keith Davis was arrested for possession
of a stolen vchicle. In Febmary 2014, Davis was "574
arrested again for possession of a different stolen vebicle.
Police also discovered crack cocaine in Davis's possession
after conducting a search incident to arrest. In March 2014,
the State charged Davis with two counts of possessing a stolen
vehicle and one courit of possession of a controlled substance.
On Febmary 6, 2015, Davis waived his right to counsel.
During his couoquy with the trial judge, Davis asked how he
could request standby counsel. The judge informed Davis he
could move for standby counsel but the motions were unlikely
to be granted. The court then found Davis knowingly and
voluntarily waived his right to counsel, and he proceeded pro
se.

!3 Davis obtained an investigator, reviewed discovery
materials, and located potential witnesses. The investigator
interviewed some of these witnesses and shared his findings
with Davis. During pretrial and case setting hearings,
Davis continually asked for st,indby counsel and repeated
his fmstrations about preparing to defend himself whi)e
incarcerated. The court continued to deny standby counsel,
noting that such counsel is not constitutionally required and
raises ethical issues.

WESTLAW -"i 202s' Tll)-')!oit L;'-)11 s"'- t i?tal li "C} 0 (Jl}'l(Jl 1, - asaver ,rsr=l-,o Paoo s

'l

St,ate v. Davis, 195 Wash.2d 571 (2020)
461 P.3d 1204

!4 0n February 27, 2017, the parties appeared for trial. Davis
renewed his request for a continuance. He stated that he was

proceedings from another location. However, because
Davis interrupted proceedings, the court was unable to

unprepared based on his significant medical conditions, '

finish its statement:

an incomplete investigation, and the alleged withholding of
discovery materials from the State. Regarding his medical
issues+ the court allowed Davis to break every hour during
trial to use the res'uoom and supplied him with sufficient water
to meet his needs. Davis agreed. The judge also spoke with
Davis's investigator and heard from the prosecution that both
the investigation and discovery were complete. The judge
then denied Davis's motiori to continue. Davis responded that
he was not ready for trial and *575 renewed his request
for standby counsel (what he referred to as "hybrid standby"
counsel). 1 Record of Proceedings (RP) (Feb. 27, 2017) at
184, 193, 195-96. The court attempted to clarify if Davis
meant he was *"l207 withdrawing as his own counsel and
requesting new counsel. Davis stated that he would not go to
trial and that the court could "go to trial without [himl"; he
said he was "not coming to trial" and "you guys can hold trial
without me. Right? You do that? ... Because I'm not coming."
Id. at 189-92; see also id. at 193, 195-98. The presiding
judge filed her written ruling denying Davis's motions to
continue and to withdraw from representing himself, and did
not grant his request for standby counsel. The judge then
recused herself after discovering she had previously worked
with Davis's sister. The case was reassigned to Judge Julie
Spector.
l

prrx:eedmgsMR. DAVTS: You can remove me now.

2 RP (Mar. 2, 201 7) at 380. Despite the incomplete
statemenl Davis appears to accept that the warning
occurrcd. See Suppl. Br. of Resp't at 3 ("The trial
court warned Davis if he continued to be disruptive,
he would be removed to observe the court proceedings
elsewhere.").

*576 Y6 Davis returned to court and represented himself
without significant incident until the State commenced its
case in chief. The State called two officers involved in Dayis's

January 2014 arrest for possession of a stolen vehicle. Davis
cross-examined the witnesses and eventually asked for a
break to use the restroom facilities. After a brief recess, the
court reconvened and Davis saw the water on his table had

been removed. The court explained that Davis had increased

his water intake such that he was using the restroom every
25 minutes instead of every hour as he had agreed. With two
witnesses left to examine that day, the court told Davis that he
would receive no more water. Davis then began a "tirade of
expletives, pounding on the table with bis fists, and yelling at
an extremely loud volume, ..? at one point scream[ingl 'F**k
you, Spector! ' to the Coiut." Clerk's Papers (CP) at 141; Tr.
of Proceedings (Mar. 7, 2017) (TP) at 200. Davis was warned

Davis suffered from multiple sclerosis, a ruptured henii a,

that "he would be removed from the coiutroom" "if he was

and an obstructed bowel, and was scheduled for several

going to continue to raise his voice and curse." CP at 142.

medical procedures. These conditions caused Davis
considerable pain and led to dehydration, requiring him
to consume large quantities of water and, consequently,
to frequently break to use the res'lroom facilities.

! 7 The State attempted to proceed with questioning witnesses,

$5 At the CrR 3 .5 hearing, Davis again sought a continuance
and attempted to withdraw as his own counsel. The judge
denied both motions. In response, Davis became irate. He
screamed that he wanted a new j udge. The court warned Davis
that outbursts and disruptions would lead to his removal. 2

R?P (Mar. 2, 2017) at 380-82. 2 Davis said, "You can remove
me now. What have we been doing here? I don't even want to
be here. So remove me. I don't care. I told you that. You can
hold your trial without me." Id. at 3 80; see also id. at 3 82 (the
court stated that it would begin with jury selection, and Davis
replied, "WiUh or without me. ... I'm not going to be here").
)

THE COURT: If you are disruptive I will have you
removed from the court. You can observe the court

The record indica(es that the trial ju%e warned Davis
that should he be removed, he would be able to observe

but Davis refused to cease his outbursts. The judge
temporarily cleared the jury. Davis repeatedly said, "You can
hold your trial without me," and the court replied, "T'm going
to do that." TP at 205. Davis went as far as to remark," Thank
you. Thank you. Just go ahead with your kanggoo court ....
['m done with it." Id. at 205-06. During this exchange, Davis
shouted at the "top of his lungs, swearing" and apparently
moved to exit the courtroom. Id. at 208; CP at 142. The judge
stopped Davis in order to make an oral mling. She found that
Davis was voluntarily absenting hitnself from the proceedings
under State sr Gar.a, 150 Wash.2d 360, 365-66, 77 P.3d 347
(2003), noting that Davis intentionally drank more water in
order to delay trial with bathroom breaks, often during ctitical
portions of witness testimony. The court's written ruling found
that Davis's outbursts grew "so loud that ... the coumoom

across the hall ... was forced to recess because the parties
*S7'l were unable to hear their own witness." CP at 142.

+iESl!'-A%4 '..i ciO')('i "i iisr i's.?ri Dse.i!e a:x INC Jai i ?31 riy i) ia:ii '.o s') GryrBri l'i c r x '{;crks

.t}

461 P.3d 1204

"The volume was such that the Court was unable to speak
over [Davisl." Id.

!8 After Davis left the courtroom, the jury returned and the
State resumed its direct examination. The State questioned
officers involved in Davis's Febmary 2014 arrest, asking
about the cocaine discovered in his "]208 possession and
his voluntary statements given after arrest. Davis was not
present to cross-examine either witness. He was absent for
approximately 50 minutes of trial.
'l{9 The following day, Davis returned. The court warned him
that any profanity or dismptions would result in his removal.

Davis agreed, though he continued to internipt and ask for
standby counsel, which the court denied. Despite Davis's
combative behavior, the trial proceeded with Davis present.

Wasli.2d 618, 624, 359 P.3d 793 (2015) (citing State v
Thomson, 123 Wash.2d 877, 880, 872 P.2d 1097 (1994)). This
right is not absolute, however. State v. DeWeese, 117 Wasl'i.2d
369,381,816P.2dl(1991).
'fl 13 A criminal defendant may waive the right to be present
so long as the waiver is knowing and voluntary. Thurlby,
184 Wash.2d at 624, 359 P.3d 793 (citing State v Rice, 110
Wash.2d 577, 619, 757 P.2d 889 (1988)). A waiverof theright
to be present may be express or implied. Ic[. (citing Thomson,
i23 Wash.2d at 88I, 872 P.2d 1097 ). If a l'al has begun
in the defendant's presence, a subsequent voluntary absence
of the defendant operates as an implied waiver of the right
to be present. Id. If the coiut finds this waiver, it is free
to exercise its discretion to continue the trial without further

consideration. Thomsoii, 123 Wasb.2d at 881, 8 72 P.2d ] 097 .

Davis was convicted on all counts.

"pl0 0n appeal, Davis argued that the trial court violated
bis right to be present when it removed him from the
courtroom. The Court of Appeals agreed that he was
removed but concluded the trial court was not required to
consider less restrictive means before removing him. State
v. Dasiis, 6 Wash. Apli. 2d 43, 54-57, 429 P.3d 534 (201 8).
Davis also asserted he was without representation when the
State examined witnesses testifying to his Febmary 2014
arrest and therefore violated his Sixth Amendment right to
representation. Id. at 62, 429 P.3d 534 . The Court of Appeals
agreed and reversed Davis's convictions for possession of a
stolen vehicle and possession of a controlled substance, and
remanded for a new trial. Id. at 62-63, 429 P.3d s 34 . The State
sought review here, asking us to review whether a defendant
may voluntarily absent hitn- or herself from trial based on
disruptive behavior and to clarify the proper standard of
review for this inquiry. We granted the State's petition. .'state
v. Daxiis, 192 Wasli.2d 1023, 435 P.3d 280 (2019).

*5"l8 ANALYSIS

'[1 l The State argues that the trial court did not err in finding
that Davis 'uraived his right to be present at trial by voluntarily
absenting himself. We agree.
$12 The Sixth Amendment and the due process clauses of
the Fifth and Fourteenth Amendments to the United States

Constitution, as well as articie i, section 22 of our state

constitution, guarantee the right of the criminal defendant
to be present at his or her own trial. State sr Thurlby, 184

$14 The United States Supreme Court and this court have
held that a defendant's persistent, disniptive conduct can
constitute a voluntary waiver of the right to be present. State v.
Chapple, 145 Wash.2d 310, 318, 36 P.3d 1025 (2(10 !) (citing
lllinois sr Allen, 397 u.s. 337, 343, 90 S. Ct. 1057. 25 L. Ed.
2d 353 (1970)). The Supreme Court has held that

a defendant can lose his right to
be present at trial if, after he has
been warned by the judge that he
will be removed if he continues his

disniptive behavior, he nevertheless
insists on conducting himself in a
manner so disorderly, dismptive, and
disrespectful of the court that bis trial
cannotbecarriedon "579 withhimin

the courtroom. Once lost, the right to
be present can, of course, be reclaimed

as soon as the defendant is wiuing
to conduct himself consistently wiith
the deconun and respect inherent in
the concept of courts and judicial
proceedings.

.41fen, 397 U.S. at 343, 90 s.ct. 1057 (footnote omitted).
While courts indulge in reasonable presumptions against
the loss of constitutional rignts, trial judges who are
confronted with dismptive, "contumacious, stubbornly
defiant defendants must be given sufficient discretion to
meet the circumstances of each case. No orxe formula for

l!€STt-AW C 21I)2C ha'inso i Pe,':a-'< Nc+ ciairi"i o l)'Igli-;,i i J S le,ivery-rsery- iA'Qi<s

:Q

!Jtate v. Davis, 195 Wash.2d 571 (2020)
461 P.3d 1204

maintaining the **1209 appropriate courtroom atmosphere
will be best in all situations." Id. (emphasis added).

717 $18 Nevertheless, Garza and Thomson provide
guidance because tbey provide the test necessary to answer
the primary question before us: whether Davis waived his

$15 Previous cases analyzing whether an absence was
voluntary, and a defendant thus waived the right to be

right to be present. 3 See Garza, 150 Wasli.2d at 367, 77 P.3d
347 ; 7'Aomson, 123 Wasli.2d at 881, 872 P.2d 1097 . 4 This

present, have most often arisen when a defendant fails to

determination depends on the totality of the circumstances.
Gaiia, 150 Wash.2d at 367, 77 P.3d 347 *581 (citing
T]iomson, 123 lVash.2d at 881, 872 P.2d 1097 ). We vevievv
decisions involving waiver of the right to be present for abuse
of discretion. Id. at 365-66, 77 P.3d 347 ;see also State v Dye,

appear during tria). E.g., Garza, 150 Wash.2d at 367, 77

P.3d 347 ; see also Thurlby, 184 Wash.2d at 624-27, 359
P.3d 793 . To determine whether an absence is a waiver,
courts have reviewed a number of factors: inquiring into the
circumstances of the failure to appear, making a preliminary
finding of voluntariness (when justified), and providing the
defendant an adequate opportunity to explain his or her
absence when retiuned to custody and before imposing a
sentence. Gar=a, 150 Wash.2d at 367, 77 P.3d 347 (quoting
Thomson, 123 Wash.2d at 881, 872 P.2d 1097 ). This provides
ample protection of the right to be present because the
inquiry ensures that the court will examine circumstances of
a defendant's absence and conclude the defendant chose not

to be present, as well as providing an opportunity for the
defendant to explain his or her disappearance and rebut the
finding of voluntariness. Id.

178 Wash.2d 541, 547-48, 309 P.3d 1192 (20i3) (trial courts
"ha[vel broad discretion to make a variety of "1210 trial
management decisions, ranging from 'the mode and order
of interrogatmg witnesses and presenting evidence,' to the
admissibility of evidence, to provisions for the order and

security of the co?oom" (footnotes omitted) (quoting ER
61 ] (a))). The court abuses its discretion when its decision is

manifestly unreasonable or is exercised on untenable grounds
or for untenable reasons. Garza, 150 Wash.2d at 366, 77 P.3d
347 .

3

$16 While the factors established in Garza and Thonrson
are properly applied to defendants who fail to appear dur'ng
trial, they are less useful in the present case-that is, when
a defendant appears for trial, dismpts court procedure, and

inquiry is whether the defendant has waived his right to
be present. Gara, 150 Wash.2d at 367, 77 P.3d 347 . The

test for waiver of presence is whether the defendant knew
of his right to be present and tbat he voluntarily waived
that right. That can be determined only by his conduct

announces his wish to leave the courtroom. To be sure,

both situations require the court to determine whether a
defendant has waived the right to be present; but *580 the
circumstances surrounding a disappearing defendant differ
from those of a severely disruptive defendant. Unlike a
defendant who fails to appear, leaving a trial court to
speculate as to why, a combative defendant hardly has
need to explain his or her absence upon returning: the
court observed firsthand the dismptive behavior or heard
the defendant's intention to absent him- or herself. Thus,
while the question of whether a defendant's absence was
voluntary remains part of the waiver analysis for both types of
defendants, the considerations underlying that determination
differ. Accordingly, we agree with the Coiut of Appeals below
that the Gar;=a and Thomson factors are not always
applicable:"These factors sxe most applicable to situations
where a defendant does not appear for court or does not
return to court after a removal. As such, they are not readily
applicable to the facts in this case." Davis, 6 Wash. App. 2d
at 55, 429 P.3d 534 (emphasis omitted).

The dissent criticizes the majority for not devising a new
test. Dissent at 1216 . But a new test is not needed. The

and words. See Johnson v Zerbst, 304 U.S. 458, 464, 58
S. Ct. 1019, 82 L. Ed. 1461 (1938). Tn this case, Davis

did not follow through on his threats to leave-until he
did. He was aware of his right to be present; the tria]
court emphasized the importance of his presence, gyve
a warning that his conduct would result in a miver, and
invited the defendant to reassert his right to be pregent
svhenever he wished to do so. "A person in custody, as
any person, can voluntarily choose to be absent." People
v. Gulierrez, 29 Cal 4th 1196, 'i208, 63 P.3d 1000, 130

Cal. Rptr. 2d 917 (2003). As Davis did here.
4

The Court of Appeals' reliance on the foreign decision,
.State 'v. Mene.fee, 268 (')r. App. 'i54, 160-64, 341 P.3d
229 (2014), was unnecessary as our own case law
provides the necessary guidance. Further, Menefee is
distinguishable from the current case. Ln Merxefee , the
defendant asked to leave, then returned to court, and

when he argued irrelevant law and was told to stop or be
removed, the defendant asked to stay. See id. at 163, 34 l
P.3d 229 . Unlike Menefee , Davis did not ask to stayindeed, he asked repeatediy to leave the courtroom. E. g.,

WESTLAW - l'(ill3 TI O?ISOI Reii:ers f4(l ':)'t' rl-i t}1 l-11)l-13' wl ":l "':icr.rO t'l""el lfJorPS

x.l

Stpte v. Davis, 'i95 Wash.2d 57'l (2020)
461 P.3d 1204

l RP (Feb. 27, 2017) at 191-92, 193, 195-98; 2 RP (Mar.
2, 2017) at 380.

'ff 19 Davis argues that he did not waive his right to be present,
he was involuntarily removed, and the trial court erred in
failing to consider less restrictive alternatives to removal.
Black's Law Dictionary defines"involuntary" as"[nlot
resulting from a free and unrestrained choice; not subject to

THE COURT: We will pick ajury.

control by the will." BLACK'S LAW DlCTiONA?RY 991

MR. DAVIS: I don't care what you do.
I really don't. I'm going to continue to

(11 th ed. 2019). Unsurprisingly then, the phrase "involuntary
removal" means that a defendant is removed against his or

survive with this disease.

her will.

j20 This definition comports with our case law on defendants

removed from trial proceedings based on their dismptive
behavior. E.g., Chapple, 145 Wash.2d at 320, 36 P.3d 1025
. In Chappie , the defendant interrupted the court and
became increasingly hostile. Id. at 315, 36 P.3d 1025 . He

TT{E COURT: Tf you are disruptive T
will have you removed from the court.
You can observe the court proceedings

was eventually removed. The court worked with the defense

attorney to find a way for Chapple to participate in trial.
Id. at 316, 36 P.3d 1025 . After hearing testimony from
corrections officers on Chapple's "size and ex'uaord"mary
physical strength," including that he could break handcuffs,

MR. DAVIS: You can remove me now.

the court determined he should be excluded from the

What have we been doing here? ! don't

remainder of trial. Id. at 316-17, 36 P.3d 1025 . But unlike

even warit to be here. So remove me. I

Davis, Chapple did not state that he wished to leave the
proceedings. Davis, on the other hand, insisted that he was
"done" and "not coming to trial," l RP (Feb. 27, 2017) at
"582 190-91. He knew that proceedings would continue

don't care. I to(d you that. You can hold
your trial without me. Who cares.

without him and did not want to be there.

!2 l Far from expressing this desire only once in an angry
tirade, Davis stated numerous times that he did not plan to be
at court and that he wanted to leave. E.g., id. at 191-92; see
also id. at 193, 195-98. For example, prior to jury selection,
the court and Davis engaged in the following exchange:

THE COURT: Well, if you're
dismptive we may have to-

MR. DAVIS: Well do that. I don't care.
Ask me do I care. I don't care. You can

THE COURT: Mr. Davis, Monday
morning, you will have three days-

hold yoxir trial at Woodland Park Zoo.
Do that.

MR. DAWS: What about it?
MS. ANDERSON: 9:00

a.m. on

Monday, Your Honor?

V"/ESTL!W Gy +=Q?:i T)r.iimsr'ii'i Rs'iter, '4i: kia'ii y?> s oqin"ii I%J Sr Qi ) cr lri ix' irVorsS

r

;.)

Sjate v. Davis, ! 95 Wash.2d 571 (202O)
461 P.3d 1204

DeWeese, 117 Wash.2d at 373, 816 P.2d l (disniptive
defendant was warned and removed to another room to watch

THE COURT: We will begin jury

the trial on television).

selection.

!23 If the trial judge had made the decision to involuntarily
rei'riove Davis based on his disruptive behavior?, the right to
be present requires the trial court to consider less restrictive

alternatives, such as those outlined in Cl;iapple, 145 Wash.2d
MR. DAVIS: With or without me.

THE COURT: Correct.

at 322-24, 36 P.3d 1025 , and Deweese, li7 Wash.2d ar

373, 816 P.2d ] . But here, Davis expressed his desire to
leave the proceedings himself, and the judge allowed him
to do so. Thus, what distinguishes Davis's case from other
disruptive defendants is, as our standard of resriesv indicates,
voluntar'ness. See Thomson, 123 Wash.2d at 881, 872 P.2d

A4R. DAVIS: rm not going to be here.

1097 ("Under the voluntary waiver "584 approach, the
court only need anssser one question: svhether the defendant's
absence is voiuntaiy.").

2 RP (Mar. 2, 2017) at 380-82 (emphasis added)- Tnvoluntary
removal constitutes removal against one's will. But as

'l}24 In this case, the trial court did not abuse its discretion in

the record indicates, the defendant here was not removed

finding that Davis waived his right to be present. The record

involuntarily-his removal was purely voluntary. Davis
asked to leave the court, and the trial judge granted his "583
request. Disorderly behavior and consistent requests to leave
the courtroom demonstrate that Davis waived his right to be
present. We note that while disruptive behavior alone may
justify removal, here, Davis's insistence throughout trial that
he did not wish to be there, wanted to leave, and indeed at

one point physical!y moved to reave, as well as his disruptive
behavior, demonstrates Davis voluntarily and lmowingly left

the com%oom, waiving his right to be present. s

shows that Davis wanted to leave the courtroom and the

trial judge accommodated him. Davis asked and later yelled,
repeatedly, that he did not "even want to be here. So remove
me. T don't care. I told you that. You can hold your trial without
me." 2 RP (Mar. 2, 2017) at 3 80; see also TP at 205 ("You can
hold your trial without me."). When the trial court found that
Davis intended to delay proceedings by increasing his water
intake and ingeasingly using the res'lroom facilities, Davis
became enraged, and he reaffirmed his desire to leave: "Do
that. Thank you. Thank you. Thank you. Just go ahead with
your kangaroo coiut .... I'm done with it." TP at 205-06. The
court then reminded Davis that he had another of the State's

s

The dissent's approach encourages gamesmanship. This
defendant did everything in his power to disrupt and
delay the trial. He was fully avvare of his right to be
present and that his conduct would result in his waiver of

that right. By reversing his conviction, when he was fully
capable of confortning his conduct when he wanted to.
the dissent would give Mr. Davis exactly what he sought
-fiirther delays in his trial.

*"l21l $22 Davis relies on Chapp2e to argue that
the court erred by failing to consider less restrictive
alternatives to removal. In Chapple , this coiut dealt
with a dismptive defendant who was involuntarily removed.
For such defendants, we have held that courts must make
accommodations and consider less restrictive alternatives.

E.g., Chapple, 145 Wash.2d at 322-24, 36 P.3d 1025
(trial court determined a defendant's strength, potential for
violence, and attitude precluded him from utilizing less
restrictive alternatives and removed him from the courtroom);

witnesses to cross-examine, but Davis stated again that he was
done.

Y25 Although the court 'would have been justified in taking
action based on Davis's dismptive conduct, the totality of
circumstances show that Davis's repeated statements that he
wished to leave amounted to a waiver. The trial court properly
exercised its discretion when it permitted a contumacious
and stubbornly defiant defendant who insisted on leaving the
courtroom to absent himself from the proceedings. See .Allen,
397 u.s. at 343, 90 S.Ct. 1057 . Maintaining order in the
courtroom is within the discretion of the trial judge, and the
judge properly exercised it here. See De TVeese, 117 Wash.2d
at 380, 816 P.2d l (citing Burgess iz Towne, 13 Wash. App.
954, 960, 538 P.2d 559 (1975)). Accordingly, we hold that

Davis waived his right to be present at trial. ('

%P55T1-Q'l': )7", l' }"au! " l-': I-!a{ol-r li"i ]!1%'(} !.!L L)"' i'r'l'lsl SL'l Ilt%S

(0

',i

$tate v. Davis, 'i95 Wash.2d 57! (2020)
461 P.3d 1204
6

Davis further contends that involuntary removal violated

se when the King County Superior Court removed him from

his constitutional rights to representation and self-

trial after an abusive outburst. But the trial coiut allowed the

representation by precluding him from cross-examining

State to continue prosecuting its case against Davis-even as
the defense tabi e sat empty-without considering alternatives
that would better protect Davis's constitutional rights, which
our precedent requires.

witnesses. But as we have previously explained, Davis
was not removed; he left the courtroom voluntarily.
Similar to DeWeese , (he trial judge herc told Davis
that he sti)l had witnesses to cross-examine, yet Davis
stated he wanted to ]eave the courtroom. As we stated
in

DeXJ'reese , the right to waive counsel does not

include a right to be imi'nune from the consequences
of self-representation. 117 Wasb.2d at 382. 816 P.2d
l . Davis kncsv court would continue without him

and nonetheless insisted on leaving. Continuing court
or providing counsel to Davis would not only reward
his disniptive conduct but also provide him counse?
which he waived. Davis's waiver was found knowing and
vol untary, and he presents no reason to doubt that finding
here. Therefore, court did not err when it did riot continue

proceedings or appoint counsel in Davis's absence.

?28 Today's majority affirms the trial court, justifying
its decision by recasting Davis's involuntary removal as
a voluntary absence. But neither the transcript of the
proceedings nor the trial court's written findings support
the majority's reading of the record. The majority's analysis
*586 blurs the legal standards for voluntary absence and
involuntary removal, bypassing the constitutional protections
built into those standards and creating no clear rules for lower
courts to follow in the future. Because tbe trial court removed

Davis without considering less restrictive a1tematives, it
abused its discretion. I respectfully dissent.

"585 CONCLUSION
ANALYSIS

!26 Davis repeatedly stated that he did not want to be in
court, that he was done, and **1212 that he wished to }eave.

Coupled with his disruptive outbursts that culminated in an
abusive shouting match with the trial court, Davis obtained
what he consistently told the cotut he wanted: leaving the
proceedings. We hold that Davis waived his right to be present
at trial. Accordingly, we reverse the Court of Appeals and
affirm the trial court's mling on voluntary absence.

729 Removing a pro se defendant from the courtroom during
trial risks undem'iining the " 'very premise of our adversary
system of iminal justice' " by leaving the defense table
empty while the State brings its prosecutorial might to bear.
United States a.; Cmnic, 466 U.S. 648, 655, 304 S. Ct. 2039,
80 L. Ed. 2d 657 (1984) (quoting Herring y: k+ir Yot*, 422
u.s. 853, 862. 95 S. Ct. 2550, 45 L. Ed. 2d 593 (i975)). "A
criminal defendant has a constitutional right to be present in
the courtroom at all critical stages of the trial arising from the
confrontation clause of the Sixth Amendment to the United

Johnson, J.
Oivens, J.
Wiggiris, J.
GonzAles, J.
Yu,J.

States Constitution, ... [as well as aiticie T, section 22 of

tlhe Washington State Constitution." State v. Chapfrile, 145
Wash.2d 310, 318, 36 P.3d 1025 (2001). But that right is not
absolute. Id. A defendant can lose the right to be present
by "voluntarily absenting himself from proceedings" or by
engaging in "disruptive behavior" severe enough to justify
removal. State v DeWeese, 117 Wash.2d 369, 38], 816 P.2d
l (1991). Because the factual circumstances involved in the
absence of a defendant versus the removal of a defendant are

Montoya-Lewis, .i., did not participate

different, this court has adopted distinct standards for each.

Whitener, J., did not participate

$30 When a defendant is absent for unknown reasons,
Washington courts use a three-step analysis to detennine
whether their absence constitutes a waiver of their right to
be present. State v. Garza, i50 Wash.2d 360, 367, 77 P.3d
347 (2003). (" 'The trial court will (l) [make] sufficient
inquiry into the circumstances of a defendant's disappearance

STEPHENS, c..i. (dissenting)
"[27 This case is about how trial courts balance respect for the
constitutional rights of criminal defendants with the rieed for
orderly proceedings. Keith Davis was defending himself pro

WFST[AW (' ai?" "i -s"ms-ayi Rs,?i-sys i-vr"a l;,l rs -,(?x (-i,l(, %lll l -s r,r ir;r,s,'s,>r'l, yl @ly5

'l

$tate v. Davis, 195 Wash.2d 57t (2020)
461 P.3d 1204

to justify a finding whether the absence was voluntary,
(2) *587 [makel a preliminary finding of voluntar'ness
(when justified), and (3) [affordl the defendant an adequate

?33 The majority decides this case falls in a twilight zone
between voluntary absence and voluntary remoyal because
Davis said, "You can hold your trial without me" during his
outburst, immediately before the trial court removed him. Tr.
of Proceedings (TP) (Mar. 7, 2017) at 205. But the rna5ority's
narrow focus on that sentence ignores significant evidence in
the record that Davis was not actually waiving his right to

opportunity to explain his absence when he is returned to

custody and before sentence is imposed.' " (alterations in
original) (internal quotation marks omitted) (quoting .State v
Thomson, 123 Wash.2d 877, 881, 872 P.2d 1097 (1994))).

be present and that the trial coiui's decision to remove him

"[31 When a defendant who is physically present in the
courtroom is removed by the trial court due to dismptive
behavior, a different framework applies. See DeWeese, 1 17
Wash.2d at 381, 816 P.2d 1 (distinguishing "1213 removal
and voluntary absence). Compare Chapple, 145 Wasli.2d at
320, 36 P.3d 1025 (creating involuntary removal standard),
with Thomsrin, 123 Wash.2d at 881, 872 P.2d 1097 (creating
voluntary absence standard). Before removing a cr'mirial
defendant and proceeding in his absence, the trial court must
(l) give the defendant an adequate warning that they will be
removed if they continue to disrupt proceedings, Chapple,

had nothing to do with any such waiver. Even if the record
supported the ma3ority's view, the majority errs by failing to
identify, adopt, or apply any standard to give courts guidance
in this twilight zone. I believe the majority's approach
risks abandoning the constitutional protections built into
our voluntary absencc and involuntary removal standards,
contradicting the United States Supreme Courl's command
that trial courts "must indulge every reasonable presumption
against the loss of [the defendant'sl constitutional rights."
Alleii, 397 U.S. at 343, 90 S.Ct. 1057 (citing Jolmson, 304
U.S. at 464, 58 s.ct. 1019 ). I address each error in turn.

145 1,Vash.2d at 321, 36 P.3d 1025 , (2) consider whether the

severity of the defendant's dismptive conduct is sufficient to
justify removal, Id. at 322, 36 P.3d 1025 , (3) consider the
least severe means of preventing further disruptions in order

1. The Majority Ignores Significant Evidence That Neither
Davis Nor the Trial Court Thought Davis Was Actually
Asking To Leave Trial

to preserve the defendant's rights, id. at 323, 36 P.3d 1025 ,

and (4) give the removed defendant the opportunity to return
" 'as soon as the defendant is willing to conduct [themselves]
consistently with the decorum and respect inherent in the
concept of courts and judicial proceedings. ' " M. at 325, 36
P.3d 1025 (quoting lliinois v. Allen, 397 u.s. 337, 343, 90 S.

?34 The majority's view of the case boils down to a single line
in its opinion: "Davis asked to leave the court, and the trial
judge granted his 'request." Majority at 1210. But a thorough
examination of the record directly undermines that view.

Ct. 1057, 25 L. Ed. 2d 353 (1970)).

%32 Before deciding whether a criminal defendant has mived
their right to be present, the trial court "must indulge every
reasonable presumption against the loss of [the defendant'sl
constitutional rights." Allen, 397 ti.s. at 343, 90 s.ct. 1057
(citing Johmon v Zerlist, 304 u.s. 458, 464, 58 S. Ct. ] 019,
82 L. Ed. 146 {(193 8)). This is true for both voluntary absence
and involuntary removal. See State v. Thuriby, 184 Wasli.2d
6] 8, 626, 359 P.3d 793 (2015) ("In performing [the voluntary
absencel analysis, the trial court must examine the totality
of the circumstances and indulge every reasonable '588
presumption against waiver" of the defendant's constitutional
rights (citing Garza, 150 Wash.2d at 367, 77 P.3d 347
)); Chci,r>ple, 145 Wash.2d at 324, 36 P.3d 1025 (While
"certain circumstances may warrant the defendant"s complete
removal," the defendant's "constitutional rights to be present
at trial" "should be afforded great protections.").

*589 A. The Full Record Suggests Davis's
Statement Was Not a Sincere Request To Leave Trial
$35 The majority bases its opinion on the idea that Davis's
statement, "You can hold your trial without me" constituted a

waiver of his right to be present, which the trial court simply
granted. To support its theory that the trial court removed
Davis pursuant to this alleged waiver-and not because of
the rest of his disruptive behavior-the majority points out
that Davis "[insisted] throughout trial that he did not wish to

be there, wanted to leave, and indeed at one point physically

moved to leave." ' Majority at 1210 . But the "*l214
majority conveniently glosses over the fact that Davis never
followed through on any of his prior statements indicating that
he would be absent from trial.

l

The record does not clearly indicate that Davis physically
moved to leave. Davis was in custody and wheelchair

WES yAW (; 2020 =tio'li"/)" r?eu;a o i'o'o clc" o. ic cri(. ii;3i l o '3 Gl)/e-t-iiylei"[ Vi x':rvz

. State v. Davis, 195 Wash.2d 571 (2020)
481 P.3d 1204

bound; he relied on corrections officers to travel to and

from the courtroom every day. The majority may be

into the facts and the totality of the circumstances, the trial
coiut is in a better position to pass on the question."). Here, the

referenciny,, the trial court's admonis?ent of con'ections

trial court's own words make clear that it decided to remoye

officers during removal: "I need hm present so I can
make the record, so don't take him out yet." TP (Mar.
7, 2017) at 206. But that statement does not indicate

whether Davis was zirig to leave the courtroom of
his own accord or corrections officer's simply started
to remove turn too early. And nothing in the trial
coures written findings suggests Davis tried to leave the
courtroom prior to his removal.

'li36 0n Fe'bruary 27, Davis told the trial court, "I'm not
coming to trial." I Record of Proceedings (RP) (Feb. 27,
2017) at 191. But on Februaty 28, Davis was in his place and
ready to proceed. Again on March 2, Davis told the trial court,
"You can hold your trial witt+out me." 2 RP (Mar. 2, 2017)
at 380. But the next court day, Davis was again present and
fully participated in voir dire. Finally, on March 7, in the midst
of his abusive outburst toward the trial court, Davis repeated,
"You can hold your trial without me." TP (Mar. 7, 2017) at
205. This time, the trial court replied, "I'm going to do that,"
id. , and "You're now removed from the court," id. at 208. But
yet again, Davis was back at counsel table on March 8, TP
(Mar. 8, 2017) at 241, and did not miss another moment of

Davis because of his disruptive behavior and not because the
court believed Davis was voluntarily absenting himself from
trial.

B. The Trial Court's Oral and Written Findings
Indicate Davis Was Removed for Disruptive
Behavior, Not Because He Asked To Leave

'd40 If the ma'3ority were correct that the trial court was simply
granting Davis's request to leave the court, one would expect
the trial court would have said so in its oral or written findings.
But it did not.

$41 Instead, the trial court made clear that it was removing
Davis due to his disi'uptive behavior. See TP *591 (Mar. 7,
2017) at 207 ("aThis is about you dismpting lhe trial, delaying
the trial."), 208 ("You're now removed from the coiut."); TP
(Mar. 8, 2017) at 244 ("i'm telling you what my orders are,
and if you cannot follow them, you will be removed from the

his trial.

courtroom, as you were yesterday."). The trial court invoked
the voluntary absence standard this court articulated in Garza

"590 737 Tbis pattern of behavior strongly suggests Davis
did not intend his statements to effect a voluntary waiver of his
right to be present. Had Davis's requests to voluntarily absent

, but only in passing. And that invocation was undermined by
the trial court's very next words, which justified its decision by

himself from trial been sincere, he would have followed

through on them the first time. Or the second time. Or the
third time. But despite his bluster, Davis never voluntarily
absented himself from trial. His only absence came when he
was removed by the trial court. When given the choice, Davis
always remained present-

T38 Courts must "indulge every reasonable presumption
against the loss of constitutional rights." .41leii, 397 U.S. at
343, 90 S.Ct. 1057 (citing Johnson, 304 U.S. at 464, 58 S.Ct.
101.9 ). When a defendant repeatedly threatens not to attend
trial but nevertheless appears and conducts his own defense
every day, it is reasonable to presume that ms bombast is not
intended to constitute a waiver of his right to be present.
739 0f course, it is difficult for this court to determine exactly
what happened at trial from a cold record. That is why
appellate coiuts give significant deference to the trial courts'
view of proceedings. See Garza, 150 Wash.2d at 3 66, 77 P.3d

describing Davis's dismptive behavior. See TP (Mar. 7, 2017)
at 208 ("l am finding that he is vo]untarily absenting himself
from the rest of these proceedings under State vs. Garza, GA-R-Z-A, and the record should reflect that he continues to

speak on top of his lungs, swearing, accusing me of all kind[sl
of things.").
**l215 Y42 The trial court's written findings further
confum it removed Davis due to his dismptive behavior,
not any request to leave. The trial court even labeled

its written summary of the events leading to Davis's
removal as "F?NDINGS OF FACT AND CONCLUSIONS
OF LAW REGARDmG DEFENDANT VOLUNTARILY
ABSENTING HIMSELF FROM TRIAL DUE TO mS

DISRUPTIVE BEHAVIOR." Clerk's Papers (CP) at 140
(emphasis added). Those findings describe how the trial court
explained "that if [Davisl was going to continue to raise his
voice and curse at the Court, then he would be removed
from the courtroom." CP at 142. When Davis continued his

at 3 50 ("[B]ecause the determination of whether a defendant

"tirade," the trial court "ordered the jail officers to remove
him from the coumoom[ and tlhe officers did 80." Id. The

was voluntarily absent from trial is dependent upon an inquiry

findings also describe how "the Court warned [Davisl about

WESTL.AW

() "' E"'s' ) T I Ic)'l rs<')rl R':'o le'as '%". c'l "'Iolr" "O arlC ?i,y,a" S Gr'V"l 'l r "aa r t ](' a" ? '3

C+

.State v. Davis, 195 Wash.2d 571 (2020)
461 P.3d 1204

his behavior" again the next morning and "informed him
that if he continued to behave that way, he would again be
removed from the courtroom." Id. Though the trial court
stated rhat Davis "voluntarily absented" himself, id- , the
rationale for its decision was based on his disruptive behavior
and not on any request to leave the courtroom.
!43 No?where does the trial court say that it removed Davis
pursuant to his request to leave the coiutroom-the *592
trial court's findings do not even mention Davis's statement
that "You can hold your trial without me." TP (Mar. 7, 2017) at
205. The trial court's only stated rationale for Davis's removal

is the severity of his disruptive behavior.
!44 But even if the majority's view were supported by the
record, I could not join its opinion because it fails to identify,
adopt, or apply any legal standard to its analysis of Davis's
so-called voluntary absence.

II. The Majority Fails To Identify, Adopt, or Apply Any
Legal Standard To Govern When or Whether Defendants

Id. (footnotes and citations omitted) (citing Thomson, 123
Wash.2d at 881, 872 P.2d 1097 ; Garza, 150 Wash.2d at

367, 77 P.3d 347 ). That is it-the majority gleans no fiirther
guidance from our precedents *593 than to look at the
totality of circumstances. So it is no surprise that the majority
concludes "the totality of circumstances show that Davis's
repeated statements that he wished to leave amounted to a
waiver." Majority at 1211 .
!46 To be fair, it is tnie that the Garza and Thoinson
standards direct trial courts to weigh the totality of the
circumstances. But this court has identified pmticular factors
trial courts must weigh for a reason: these factors are how
Washington courts follow the United States Supreme Court's
command to "indulge every reasonable presumption against
the loss of constitutional rights." Allen, 397 tJ.S. at 343, 90
s.ct. 1057 (citing Joimson, 304 U.S. at 464, 58 s.ct. lOi9 );
see Garza, 150 Wash.2d at 367, 77 P.3d 347 ("Tn performing
the analysis, the court indulges every reasonable presumption
against waiver." (citing Thomsoii, 123 Wash.2d at 881, 872
P.2d 1097 )).

May Voluntarily Absent Themselves by Their Disruptive
Conduct

'lJ47 " '[T]he 3-prong voluntar'ness inquiry ensures the court
will examine the circumstances of the defendant's absence

!45 The majority's analysis begis with a discussion of the
legal staridards governing whether a criminal defendant's
volunta'iy absence constitutes a waiver of their right to be
present. But the majority quickly abandons the substance of
those standards because "the factors established in Garza

and Thornson are properly applied to defendants who fail to
appear during trial, [sol they are less useful in the present case
-that is, when a defendant appears for trial, disrupts court
procedure, and announces bis wish to leave the courtroom."
Majority at 1209 . Instead, the ma3ority relies on the voluntary
absence standards in Gar:a and Thomson for "guidance."
Majority at 1209 . But the guidance the majority takes from
those cases borders on nonexistent:

and conclude the defendant chose not to be present at
the continuation of the trial' " before proceeding "1216
without the defendant. Garza, 150 Wash.2d at 367, 77

P.3d 347 (quoting Thomson, 123 Wash.2d at 883, 872 P.2d
1097 ). This inquiry also " 'provides an opportunity for
the defendant to explain [their] disappearance and rebut the
finding of vo1untaiy absence before the proceedings have
been completed.' " Id. (quoting Tlioinsoii, 123 Wash.2d
at 883, 872 P.2d 1097 ). But today's majority abandons
the specific factors this court designed to "indulge every
reasonable presumption against the loss of constitutional
rights," Allen, 397 U.S. at 343, 90 s.ct. 1057 (citingJohnson,
304 tJ.S. at 464, 58 s.ct. 1019 ), undermining the very
purpose of our voluntary absence standard.

Nevertheless, Garza and Thomson

provide guidance because they provide
the test necessary to answer the
primary question before us: whether
Davis waived his right to be present.
This determination depends upon the
totality of the circumstances.

'1148 Worse, the majority fails to articulate any new standard
that could better protect a criminal defendant's constitutional
rights in this twilight zone between traditional voluntary
absence and involuntary removal. This is despite the fact that
the Court of Appeals here relied on foreign decisions because
"Washington case law has not yet addressed whether and how
a defendant may voluntary "594 absent himself or herself
by requesting to leave the courtroom." State 1! nasiis, 6 Wash.
App. 2d 43, 54, 429 P.3d 534 (2018). Given the majority's
vievv of the record, this case would appear to be an ideal

%'4ESTLAW ' + 2 '?C' Tt,(-(l%r%i ":plh'ei<: l'.l': l-lal ( l')"G ' Cl' !./ S ':0'.'81 lill@ 11 !'lolk >

i5)

? Siate v. Davis, 495 Wash.2d 571 (2020)
461 P.3d 1204

opportunity to provide guidance to lower courts confronting
sii'nilar situations in the future. But the majority declines to
provide needed guidance, reasoning that "our own case law

!51 I would hold that the trial court abused its discretion

provides the necessary guidance." Majority at 1209 n.4. For
the reasons explained above, I disagree.

by removing Davis without considering any alteniatives that
could better protect Davis's constitutional rights, including
his right to confront the witnesses against him. Alternatives
may have existed. The trial court could have, for example,

'[49 Today's decision departs from our precedents, provides no

placed Davis "in a room with a video monitor which allowed

clear guidance to lower courts, and will have particularly dire
consequences for pro se defendants. When a pro se defendant
is deemed to have waived their right to be present, their
removal necessarily jeopardxzes other rights,-including the
right to confront witnesses against them. As the United States
Supreme Court has observed:

him to follow the case so that he would be able to return to

tion is more than a desirable
The right of
rule of trial procedure. Tt is implicit in the constitutional

right of confrontation, and helps assure the "accuracy of
the truth-determining process." It is, indeed, "an essential
and fundamental req uirement for the kind of fair trial which
is this country's constitutional goal." Of comse, the right
to confront and to goss-examine is not absolute and may,
in appropriate cases, bow to accommodate other legitunate
interests in the criminal trial process. But its denial or
significant diminution calls into question the ultimate
"integrity of the fact-finding process " and requires that the
competing interest be closeiv examined.

court to conduct cross examination of prosecution witnesses."
"1217 DeWeese, 117 Wash.2d at 381, 816 P.2d l . "Since

.41len , many courts have managed to maintain contact
between a dismptive defendant and [ongoing proceedingsl
through various fomis of technology, including interactive
video and telephone systems." Chapple, 145 Wash.2d at 324,
36 P.3d 1025 (citing State v. Gillam, 629 N.W.2d 440 (Minn.
2001 ) (giving defendant option of usirig room with interactive
video capabilities); United States v. l'ves, 504 F.2d 935, 938
(9th Cir. 1974) (utilizing special phone system connecting
defense counsel with defendant's cell), vacated on other
grounds , 421 U.S. 944, 95 S. Ct. 1671, 44 L. Ed. 2d 97 (i975);
United States x;. i'vfutm, 507 F.2d 563, 567 (10th Cir. J974)

(allowing defendant to hear trial through broadcast system)).
I would hold the trial court's failure to consider such "596

alternatives constitutes an abuse of discretion. 2 Accordingly,
I would remand for a new trial on the charges ai'ising from
Davis's Febmary 2014 arrest.

Chambers v. Mississippi, 410 U.S. 284, 295, 93 S. Ct. ) 038,

35 L. Ed. 2d 297 (1973) (emphasis added) (citations and
internal quotation marks omitted) (quoting Dutton v. Evans,
400 U.S. 74, 89, 91 S. Ct. 210, 27 [.. Ed. 2ct 2i3 (1970);
Poihter v. Texas, 380 U.S. 400, 405, 85 S. Ct. 1065, 13 L. Ed.

2d 923 (l 965); Beyzer }! Califoritia. 393 ti.s. 314, 315, 89 S.
Ct. 540, 21 [.. Hd. 2d 508 (1969)).
$50 Here, Davis's removal significantly undermined his right
to confront the witnesses against turn. The trial court removed
Davis without giving any consideration to aiternatives "595
that could preserve that right. Immediately after removmg
Davis, the trial court directed the State to continue presenting

2

The majority claims that requiring the trial court to
considcr such alternatives "would give Mr. Davis exactly
what he sought-further delays in his trial." Majority
at 1211 n.5. But requiring the trial court to consider
alternatives is not about what Mr. Davis sought-it
is about what our constitution and precedents require.
See Chapple, 145 Wash.2d at 323, 36 P.3d 1025 . A
short delay while the trial court considers alternatives to
complete removal is a small pr:ce to pay to protect the
fundamental rights of the criminally accused.

CONCLUSION

its witnesses in Davis's absence. These witnesses testified to

cmcial elements of the State's case agamst Davis arising from
his February 2014 arrest, including details of his behavior, his
statements to officers, the mture of the evidence against him,
and more. Davis had no opportunity to cross-examine these
witnesses "to test the[ir] perception, memory, and credibility."
State 1.! Darden, 145 Wash.2d 612, 620, 41 P.3d 1189 (2002)
(citing State v Parri,s, 98 Wash.2d 140, 144, 654 P.2d 77
(1982)). The majority's analysis does not even acknowledge
this significant impact on Davis's constitutional rights.

'!152 The trial court did not believe it was granting Davis's
voluntary request to be absent from trial-it removed him
for disruptive behavior. See CP at 140 ("[T]he deferidant was
removed from the co'urtroom due to his behavior.")- The Court
of Appeals recognizcd as much. See Davis, 6 Wash. App. 2d
at 54, 429 P. 3('[ s 34 ("Davis asserts the trial court removed him

from trial for disruptive behavior. ... We agree with Davis.").
Because the trial court clearly explained it removed Davis due
to his dismptive behavior, I would hold it to that standard.

"1ESTJ%N !CJ :jl 'r!I)K3<'sr -'CllTe sl r '-% jtl r 10 'irtiia'r,i (' g '2J ' I-!I'i'eol 110-13

{l

' Statev.Davis,!95Wash.2d571(2020)
461 P.3d 1204

And because the trial court's removal orrler does not meet the

applicable constitutional minimums, I would hold it abused
its discretion. Accordingly, I respectfully dissent.

Fairhurst, J.
All Citations

195 Wash.2d 571, 461 P.3d 1204
Gordon McCloud, J.

End of Docyrnent

ic 2020 Thomson Rei.iters. No cla?ih to original u.s. Gavemmersk SNorks.

Wt+STlA%V "y t?y..i"(v 'ilo r -(i r2'Isu-7; '%' S (lBy - l0 0-, ) 11l' r,' (, o3(.,pa,-r'rB*" A (pi,

4 Ps

if:

APPENDIX B

. State v. Davis, 6 Wash.App.2d 43 (2018)
429 P.3d 534

6 Wash.App.zd 43
Court of Appeals of Washington, Division 1.
STATE, of Washington, Respondent,

Attorneys and Law Firms
Eric J. Nielsen, Dana M. Nelson, Nielsen Broman Koch

PLLC, Attorney at Law, 1908 E Madison St., Seattle, WA,
98122-2842, forAppellant.

V.

Keith Adair DAVIS, Appellant.

l

No. 768o6-g-I

FILED: November s, 2018

Raul Robert 'Mal tilxz, Attonle7 at Law, Ann Maxi e S uflllners,

King County Prosecutor's Office, Prosecuting Attorney
King County, King Co. Pros./App. Unit Supervisor, W554
King County Courthouse, 516 Third Avenue, Seattle, WA,
98104-2362, forRespondent.

Synopsis

Background: Defendant was convicted, following jury trial,
in the Superior Court, King County, Julie A. Spector, J., of
possession of a stolen vehicle and possession of a controlled
substance. Defendant appealed.

Holdings: The Court of Appeals, Chun, J., held that:

PUBLISHED OPINION

Chua, J.

*46 % l Defendant appeals a judgment convicting him of
two counts of possession of a stolen vehicle and one count
of possession of a controlled substance. He assigtis error to
the ti'ial court's decisions to (1) deny his motions for standby
counsel, (2) remove him from the courtroom during trial.
and (3) proceed with trial in his absence while he was self-

trial court adequately considered defendant's requests for
standby counsel;

represented.

trial court abused its discretion in finding that defendant
voluntarily absented himself from courtroom and therefore
waived his Sixth Amendment right to be present during trial;

! 2 The trial court did not abuse its discretion in denying
Keith Davis's requests for standby counsel. Nor did the
trial court abuse its discretion in removing Davis from the

trial court did riot abuse its discretion in completely removing
defendant from courtroom, without considering less severe
alternatives ;

trial court's decision to proceed with trial after removing
defendant violated defendant's Sixth Amendment right to

courtroom during trial, after it warned him, due to his
disniptive behavior. The court, however, allowed two material

witnesses to testify in Davis's absence, with an empty deferise
table, and it did not afford him an opportunity to crossexamine either witness. For the reasons set forth below, we
conclude this decision violated Davis's Sixth Amendment

right to representation, U.S. CONST. amend. VT.

representation; and

trial court's violation of defendant's Sixth Amendment right

ffl 3 We affirm Davis's criminal judgment and sentence as
to count 1 (possession of stolen vehicle). However, as the

to representation was structural error requiring remand.

portion of the trial held in Davis's absence included testimony
to support counts 2 (possession of a stolen yehicle) and 3
(possession of a controlled substance), we reverse as to those

Affirmed in part, reversed in part, and remanded for new trial.

counts and remand.

**536 Appeal from King Coumy Superior Court, Docket
No: 14-l-00794-s, Honorable Julie A. Spector, Judge

l.

BACKGROUND

V4ES!l-AVi

-/ ',)('X') T hr@'-s,6y"'? "":eyitr-v53 i tv siaiaii r?rs C,Ig "rc-l (i S G!iJ" i"),ioi,;ii", 'yHrsykcy

.k

' . Statev.Davis,6Wash.App.2d43(2018)
429 P.3d 534

! 4 0n January 23, 2014, Sergeant Timothy GilletLe of the
King County Sheriff's Office mested Davis for possession of

j

a stolen Hyundai vehicle.

Davis suffers from seveeii medical conditions, including
active multiple scierosis, a ruptured )'iei:nia, and an
obstructed bowel. Davis used a wheelchair during the
trial.

"'537 "4'l ! s Two and a half sveeks later, on Februaiy
11, 2014, Officer Danny Graf of the Federal Way Police
Depaitment observed a Buick parked near a park-and-ride
and saw Davis standing outside the car, making furtive
movements. As Davis got into the car to drive away, Officer
Graf recorded the license plate. Tlie owner had reported

% 9 0n April 1, 2016, Davis renewed his motion for standby
counsel. Citing State v. Romero, 95 Wash. App. 323, 975
P.2d 564 (1999), the trial court reiterated to Davis that he
did not have a right to standby counsel. Davis claimed an
"implied rigbt" to standby counsel in the event he could
not continue representing himself. The court declined to
ovdev standby counsel and stated Davis must choose between
having counsel and representing himself. Davis chose to

the vehicle as stolen. O'fficer Graf then initiated a traffic

stop and arrested Davis for possession of a stolen vehicle the Buick. Officer Justin Antholt, also of the Federal Way
Police Depatttnent, arrived as backup and conducted a search
incident to arrest. He discovered 2. 18 grams of crack cocaine
in Davis's shirt pocket.

% 6 0n May 19, 2014, the State charged Davis with two
counts of possession of a stolen vehicle and one count of
possession of a controlled substance. On February 6, 2015,
Davis moved to proceed without legal counsel. The court
granted the motion. During the trial court's colloquy to assure
a proper waiver, Davis requested standby counsel. The court
warned Davis it would likely not grant such a request but told
him he could file a motion.

'[ 7 Dasiis moved for standby counsel at a case setting hear'ng

on January 28, 2016. ' The court explained to Davis that he
did not have a right to standby counsel and ordering such
counsel could raise ethical and practical concerns. Davis then
elaborated on his reasons for requesting standby counsel,
namely access to office equipment and unfamiliarity with the
judicial process. The trial court denied Davis's motion.
1

The case was significantly delayed because the trial court
originally transferred it to Drug Court. Additionally,
during Davis's release in this matter, he was arrested in
Thurston County, charged with assault, and convicted
there.

% 8 At another case setting hearing on Febmaiy 11, 2016,
Davis again moved for standby counsel. Davis stated he
needed standby counsel because "there aren't any resources

*48 available and they're limited to my health 2 as well. l
i'nay not be able to proceed." The trial court stated Washirigton
law does not favor standby counsel. The court denied the
motion.

proceed without a lawyer.

'il 10 Davis made another motion for standby counsel on
May 10, 2016. The trial coiut asked if Davis's circumstances
had changed since his last motion for standby counsel. In
response, Davis referenced "doctor appointrnents" and being
a "layperson." Seeing no change in circumstances, the trial
court denied Davis's motion.

! 11 0n February 27, 2017, the parties appeared for pretrial
hearings. Davis moved for a continuance. The trial court
denied the request, as trial was set to begin the next day and

the case had already been significantly delayed. 3 Davis then
stated that he wanted to "withdraw" as his counsel and that

the court could go to trial without him. The court attempted to
clarify Davis's statements and asked him if he was requesting
counsel when he said he wanted to withdraw, but Davis just
repeated he would not come to trial and cited health issues.
The trial court denied Davis 's motion to withdraw as counsel

because it would unnecessarily delay triai The court also
declined to appoint standby counsel.
Th

The court had already continued the case considerably to
allow Davis to hire an inves%ator and prepare for trial.

"49 'fl 12 Trial started the next day, arid Davis moved for
standby counsel and a continuance. The court denied both
motions because it had already ruled on them. The case
proceeded to trial.

**538 % 13 After a CrR 3.5 hearing, Davis claimed he could
not continue with the trial because of excessive pain. Davis
again moved for a continuance, and the trial court told him it
had already denied the motion. Davis stated he was "unable to
continue as [his] own counsel." The court reminded Davis it
had denied that motion as well. In an attempt to advise Davis
of what was expected at trial, the court warned Davis it would

vJESTi-4%' "'o Aoi'20 T( 'al 1 ( 1 +-'r-l J (,7'5, is ", Uc) 1 (() vi() ,,11 o , Goo Gia'itl'lA , '14,,)-i t

State v. Davis, 6 Wash.App.2d 43 (2018)
429 P.a3d' 534

temove him if he acted disruptively. Davis said that he did not
care and that the court could hold trial without him.

THE DEFBNDANT: You're goirig to deny me water when
I need water, whatever.

7, 14 Davis appeared for trial on March 7, 20 ] 7. In the middle
of the afternoon, during the State's examination of Officer
Antholt, the court excused Davis for a restroom break. When
Davis returned, he noticed the water had been removed 'l'rom
his table. He began banging his fists on the table, screaming
he needed water. The court told Davis the water was removed

THE COURT: I need him present so I can make the record,
so don't take him out yet.

THE DEFENDANT: I don't care about your record.
THE COURT: Well, Ido.

because Davis took restroom breaks every 25 minutes. The
court noted that Davis had consumed twice as much water as

the day before and that the proceeding would soon adjourn
for the day. The court tried to proceed with trial. The State
attempted to continue its examination of Offlcer Aritho)t, but
Davis repeatedly interrupted to make comments about the
water. The trial court temporarily retired the jury, and the
following exchange took place:

THE COURT: I'm going to take the jury back now.
THE DEFENDANT: Than)c you. You can hold your trial
without me. How's that?

THE COURT: T'm going to do that.

THE DEF'ENDANT: Do that. Thank you. Thank you.
Thank you. Just go ahead with your kangaroo court and
your ridiculous charges, and your little games and that you
do that. Load *50 somebody else up in the prison systenn.
Get your next victim lined up. I'm done with it. I could care
less.

THE COURT: All right. Wait a minute. Mr. Davis, you have
one more-

THE DEFENDANT: What do you want? I need water. I'm
done talking. What's there to talk about? You're playing a
game. I'm done playing your games.
THE COU]RT: All right. The record's going to reflectTHE DEFENDANT: All right. The record this - all right,
for the record this. I said that, I mean that. I'm not going
to continue to be a gentleman and polite. l could care Iess
what you say. T'm done with it.

THE COURT: T'm going to find that you are voluntarily
absenting yourselfTHE DEFENDANT: Whatever. Do whatever you want.
THE COURT:-from these proceedings.

THE DEFENDANT: I don't. And I know your buddies up
at the appellate court ain't gonna give a shit either, so fuck
the record.

THE COURT: So the record should reflect that Mr. Davis

has been given twice as much water as he had yesterday
and, therefore, he'sTHE DEFENDANT: So what?

THE COURT: Had to use the restroom twice as much.
THE DEFENDANT: I had to use the restroom because I

had a digestive dysfunction. I piss a lot. Ask the god damn
- the officer's. l piss.

THE COURT: Can you keep your voice down?

THE DEFENDANT: No, I'm not. Freedom of expression.
You don't want to listen then shut your ears.
*51 THE COURT: So at about-ten after 3:00 he was

brought back here and I've explained to him thatTaHE DEFENDANT: We gonna do this, we gonna play the
kangaroo game. I don't carc, either. You can keep playing,
play with yourself. Stop playing with me. Who cares?
THE COURT: This is not about the"*539 THE DEFENDANT: I don't care.

THE COURT: This is about you disrupting tbe trial,
delaying the trial.
THE DEFENDANT: Doesn 't matter what it's about. What

it's really about, nothing.

THE COURT: Screaming at the top of his lungs, the juryTI-uE DEFENDANT: And I'm going to continue to scream.
Where's my fucking water?

(Defendant screaming simultaneously with court)

WESTLAW r oa:+020 qil{" Y'l ox'i Re i"e J a*c,i :laai'i ae :i*iiJiria' u S ('> 1".lni"al'?!Ji v'sio"irr >

State v. Davis, 6 V!asb.App.2d 43 (20j8)
429 P.3d 534

THE COURT: I need to proceed with the trial, and I am
finding that he is voluntarily absenting himself Jrom the
rest of these proceedings under State v. Garza[, 150 Wn.2d
360, 77 P.3d 347 (2003) ] G-A-R-Z-A, and the record
should reflect that he continues to speak on top of his lungs,
swearing, accusing me of all kinds of things.
THE DEFENDANT: You 're being an asshole, and I can be
one, too.

THE COURT: You're now removed firom the court.

discretion when its "decision is manifestly unreasonable, or
is exercised on untenable gyounds, or for untenable reasons."
State v. Garza. 150 Was.h.2d 360, 366, 77 P.3d 347 (2003).
ffi 19 Defendants may waive their Sixth A?mendment right
to assistance of counsel and decide to represent themselves
at trial. Re?, 95 Wash. App. at 326, 975 P.2d 564. Tf a
defendant chooses self-representation, he or she does not have
a right to standby counsel. j?esc, 117 Wash.2d at 3 79, 816
P.2d i. "The right to self-representation in a criminal matter ...
is an all-or-nothing process." ?, 95 Wash- App. at 326,
975 P.2d 564.

THE DEFENDANT: Good. And fuck you very much,
asshole. Fuck this kangaroo court shit.
'fl 15 At this point, it was after three o'clock in the afternoon.
In Davis's absence, the State continued questioning Officer
Antholt, who testified as to finding crack cocaine in Davis's
pocket. The State then examined Officer Graf, who had
identified the stolen Buick, initiated the traffic stop, and
arrested Davis. Officer Graf also testified as to Davis 's alleged
statements about how he had obtained the Buick. The court

did not give Davis an opportunity to cross-examine either
officer.

% 16 Dayis returned to court the next morning. The trial court

! 20 Neve'rtheless, a defendant may request standby counsel,
and the trial court must exercise its discretion in considering
the request. '? 5tale v. Stearina:n, 187 Wash. App. 257, 265,
348 P.3d 394 (2015.). A court abuses its discretion when it fails
to exercise its discretion. ?er, 91 Wash. App. 236,
242, 955 P.2d 872 (1998).

*53 'ff 21 Davis contends that because two judges to}d
him obtaining standby counsel was unlikely, no 3udgc
meaningfully considered his requests for standby counsel.
The record does not support this argument.

"did not have ariy further behaviorissues of significance," and

'jl22 The court heard Davis's motions for standby counsel
in at least six separate hearings before five different judges.
Initially, the trial court engaged in a colloquy with Davis
"540 to ensure he made a knowing and voluntary waiver
of his right to counsel. Indeed, Davis does not challenge the
validity of his waiver. The court told Davis he could submit
a motion for standby counsel but warned it would not likely

he attended the remainder of the trial.

grant it.

noted Dayis's outburst on March 7 amounted to one of *52

the worst it had seen. The court again warned Davis it would
remove him if he raised his voice or used profanity. In its
findings, the court indicated Davis's outburst also dismpted
trial in the courtroom down the hall. The court noted Davis

n.

ANALYSIS

A. Standby Counsel

'd 17 While Davis concedes he lacks a constitutional right
to standby counsel, he clain'is the trial court abused its
discretion by categorically denying his requests for such
counsel. He mischaracterizes the record. The trial court

properly considered Davis's requests for standby counsel.
! 18 An appellate court reviews a decision to deny standby
counsel for an abuse of discretion. State v. DeWeese, % 17
Wasli.2d 369, 379, 816 P.2d I (1991). A trial coiut abuses its

s 23 At the next hearing, Davis presented his reasons for
requesting standby counsel. He referenced issues such as lack
of acccss to office equipment and unfamiliarity with legal
processes. The trial court explained at some length its view
as to why Washington courts disfavor standby counsel. The
court also told Davis that though he could request standby
counsel such requests were rarely granted. The record shows
the court considered his motion and denied it because, in
its view, the appointment of standby counsel could give
rise to ethical and practical concerns, and Davis failed to
demonstrate his need for standby counsei overcame these
concerns.

'q 24 Davis moved for standby counsel several more times.
Each time, the trial coiut allowed him to be heard. The court

'VV E S', L ;Jx%%4 l/" l"l 2?a "o 'H s i y 11 i r?"(si ?gr3 11 - (2,,l? -- ,-,r, ? 3o ?i (,o /"%?y ,t%s, , i, ,, (. o q ,+t y3

il

State v. Davis, 6 Wast?.App.2d 43 (2018)
429- P..id 534

also explained to Dawis the reasons it denied his requests.
The court afforded Davis opportunities to argue whether his
circumstances had changed since the court denied his original
motion. Concluding Davis's responses did not justify granting
standby counsel, the court denied his motions.
% 25 The court considered each of Davis's numerous requests
for standby coiu'isel. Nothing in the record suggests the

and (3) [gave] the defendant an adequate opportunity to
explain his absence "55 when he is returned to custody."
G??m?, 150 Wash.2d at 367, 77 P.3d 347. These factors are
most applicable to situations where a defendant does not
appear for court or does not return to court after a removal. As
such, they are not readily applicable to the facts in this case.
Tn particular, the first and third factors assume the defendant
failed to appear without first explaining his or her absence to

court believed it did not need to exercisc its discretion. The

the court,

record also does not suggest the court refused to exercise
its discretion in denying the motions. The trial *54 court
adequately considered Davis's requests for standby coiu'isel.

'jl31 Given the lack of Washington case law on the question,
we turn to decisions firom other jurisdictions for guidance.
The facts here resemble those of State v. Menefee, an

B. Voluntary Absence

% 26 Davis asserts the trial coiut removed him from trial
for disruptive behavior. The State counters Davis voluntarily
absented himself. We agree with Davis.

'J27 Appellate courts review a trial court's finding of
voluntary absence for an abuse of discretion. ?, 150
Wash.2d at 365-66, 77 .P.3d 347.

"ll 2)" The Sixth Amendment granls defendants the right to
be present at their trial. State v. Thomson, 123 Wasli.2d
877, 880, 872 P.2d 1097 (1994). However, a defendant may
voluntarily absent himself ox herself and thereby waive the
right to be present. ?, 123 'yVash.2d at 881, 872 P.2d
1097. Notably, the court should "indulge[ ] every reasonable
presumption against wai'ver." ?, 150 Wash.2d at 367, 77
P.3d 347.

'1129 The State argues Davis's statement "You can hold your
trial without me" indicates he voluntarily absented himself.
Washington case law has not yet addressed whether and
how a defendant may voluntary absent himself or herse{f by
requesting to ]eave the courtroom. Our voluntary absence
cases consider only scenarios in which the defendant either
does not appear for court or does not return after removal.
% 30 Under Washington law, "the court only need answer
one question: whether the defendant's absence is voluntary."
?, 123 Wagli.2d at 881, 872 P. 2d 109 7. When deciding
whether a defendant's absence qualifies as voluntary, courts
consider the totality of the circumstances. ?, 123
Wasl'i.2d at 881, 872 P.2d 1097. Specifically, appellate courts
look to whether the trial court "( 1) [madel sufficient inquiry
irito the circumstances of a defendant's disappearance to
justify a finding whether the absence was voluntary, (2)
[madel a preliminary finding of voluntariness, when justified,

Oregon case. Tn State v. Meriefee, a self-'represented **541
defendant made improper arguments during his opening
statement and refused to confine the scope of his presentation.
268 0r. App. 154, 160-64, 341 P.3d 229 (2014). When
the defendant began arguing with the court, it warned the
defendant it would remove him if he did not behave properly.
?, 268 0r. App. at 163-68, 34} P.3d 229. When the
defendant continued his unruly behavior, the court stated the
defendant intentionally in'+demiined the trial and concluded
this constituted a voluntary absence. ?, 268 0r. App.
at 166-68, 341 P.3d 229. Though the trial court characterized
the defendant's departure as a voluntary absence, the Oregon
appeuate court concluded the record showed the trial court
removed the defendant for misconduct. ???Menefee, 268 0r.
App. at 182, 341 P.3d 229.

ffl 32 Similarly, here, the trial court found Davis intentionally
undermined the trial, and stated he voluntarily absented
himself and "was removed from the courtroom due to

his behavior-" 4 Although Davis made the statement "You
can hold your trial without me," he made it in an irate
state, claiming he needed water for medical reasons. As
mentioned above, Washington law requires the court to
indulge every reasonable presumption against waiver, which
must be knowing and voluntary to be effective. *56 Neither
his statements nor his misconduct amounted to his voluntarily
absenting himself. Thus, his absence from trial is more
properly categorized as one due to removal rather than miver.
We next examine whether the court abused its discretion in

removing Davis.
4

The trial court did so in its May 26, 2017 Findings
of Fact and Conclusions of Law Regarding Defendant
Voluntarily Absenting Himself from Trial Due to His
Disruptive Behavior.

WESTLAW l- 2"2'l -( Hllt,@ iiql-i,'(,i;5 , 'l- ,l,l ('J r,+Y,?rL"l t.l E C.i ,!Ilr"r'181l: 1%')'KG

State v. Davis, 6 Wash.App.2d 43 (2018)
429 P.3d 534

behavior and finally removed him following an outburst in
which Davis repeatedly screamed, banged on the table, and
used profanity in the courtroom. Davis yelled so loudly that
proceedings in the courtroom across the hall recessed. Such

C.?

'ff 33 Davis contends the trial coiut erred by removing him
from the coumoom without first considering less severe
alternatives. The State axgues the trial court was not required

conduct warrants removal from the courtroom.

to do so. We agree with the State.

% 38 When considering the ieast severe alternative, the trial
court can best assess both the technological Umitations of its
courthouse and the defendant's impending threat to disnipt
the proceedings. ?, 145 Wash.2d at 324, 36 P.3d 1025.
Here, the record does not show the co'iut considered having
Davis attend trial in some other way, such as tbrough video
monitoring. But this is not mandated. Because there exists
only a preference, as opposed to a requirement, for trial courts
to use the least severe means, nothing in the record shows
the trial court did not act within its discretion when removing

! 34 Trial judges facing disruptive defendants must be
given suffIcient discretion to maintain order in their court.
?, 117 Wash.2d at 3 80, 816 P.2d 1. An appellate court
reviews a trial court's decision to remove a defendant for

an abuse of discretion. ?, !17 Wash.2d at 380, 816
P.2d I . A tria] court abuses its discretion when its " 'decision

is manifestly unreasonable, or is exercised on untenable
reasons, or for untenable grounds, or for untenable reasons
Garza, 150 Wash.2d at 366, 77 P.3d 347.

% 35 The Washington Supreme Coiut listed several guidelines
to aid courts in deciding whether to remove a defendant Sj?
v. Chapple, }45 Wash.2d 310, 320, 36 P.3d 1025 (2001).
First, a trial court should warn the defendant that continued
disruptions could lead to removal. ?, 145 Wn.2d at
320, 36 P.3d 1025. Second, the defendant's obstreperous
behavior must be severe enough to justify removal. ?,
145 Wasii.2d at 320, 36 P.3d [025. Third, the Court stated

a preference for the least severe alternative that will prevent
interferences with the trial. ?, i45 Wasli.2d at 320, 36
P.3d 1025. Finally, if the defendant assures tbe court his or her
conduct will 'unprove, he or she must be allowed to reclaim
the right to be present. ?, 145 '!Vam.2d at 320, 36 P.3d
1025. These instnictions "are not meant to be constraints on

trial court discretion, but rather to be relative to the exercise
of that discretion such that the defendant will be affordcd

a fair trial while maintaining the safefy and decorum of the
proceedUn(4s." ?, 145 Wash.2d at 320, 36 P.3d 1025.

Davis from the courtroom.

D. Right to Representation

% 3 9 Davis maintains, even if the trial court properly removed
him, it violated his Sixth Arnendment right to representation
by allowing the State to examine two of its witriesses in
his absence and not affording him an opportunity "58 to
goss-examine the witnesses. Relying on ?, the State
contends Davis had waived his right to counsel and the court
had no obligation to reappoint counsel or obtain a waiver from

Davis of his right to representation. s Washington cases have
not yet addressed the propriety of going forward with trial
after a court properly remosves a self-represented defendant
for disruptive behavior. After a review of cases from otber
jiuisdictions, we conclude that in this case, proceeding with
trial in Davis's absence violated bis Sixth Amendment right
to representation.
c

"57 ! 36 Davis bases ms challenge on only the tbird factor
and argues the court erred in completely removing him from
trial without considering less severe alternatives. Davis says
that because the record does not show he behaved severely
enough to warrant complete removal, the court should have
instead allowed him to watch the proceedmgs from a video
monitor in another room, allowed him to return to the
trial sooner than the following day, or provided him with
transcripts of the proceedings for his closing argiunent.

The State points to ? to argue the trial court did
not ne.ed to obtain a waiver of the right to representation
or appoint counsel after it removed the defendant.
However, ? does not apply on this issue, as it
involved very different facts. In ?, the defendant
watched the State's examination of a wihiess from
a television monitor in another room after the coiirt

removed bim for violating its nilings. 117 'vVash.2d at
3 73, 816 P.2d 1. The court then invited the defendant to
return to cross-examine the witness, but the defendant
declined. ?, 117 Wash.2d at 374, 816 P.2d 1.

! 3 7 Here, the trial court warned Davis he risked removal if he

The coiut warned tbe defendant of the consequences

continued to interrupt the proceedings. Nevertheless, Davis
continued to act disniptively and disregard court **542
orders. The court tolerated much of Davis's inappropriate

of absenting himself from court, but the defendant
continued to refuse to participate and asked to retiu'n
to jail. ?, 117 Wash.2d at 374, 8]6 P.2d ] . The

%'J'E'STLAVd (' 21?)'J 'hOli'S"j ':' syl't3"'> '?J" C)(J lTh i'i O'iGla-re J ,s G")ylo-Hll J'('[' , 'v%t'ii kS

State v. Davis, 6 Wash.App.2d 43 (20'l8)
429 P.3d 534

trial court allowed the State to present the rennainder
of its case in the defendant's absence and proceeded to
closing arguments after the defendant chose not to return.
?, 117 Wash.2d a.t 374, 816 P.2d i. Because
the defendant voluntarily absented himself, the Supreme
Coiut upheld the trial court's decision not to appoint
counsel for the defendant during his absence. ?,
117 Wash.2d al 379, 816 P.2d l .

! 40 Appellate courts reyiew de nosio whether a trial court
violated a defendant's right to representation- ?,
168 Wasb.2d 713, 719, 230 P.3d 576 (2010). Several state
appellate courts and the Ninth Circuit have addressed legal
questions similar to the one before us.
% 41 In Peo'ole v. Carroll, the defendant chose to represent
himself but later requested an attorney. 140 Cal.App.3d 135,
13 7-38, 189 Cal.Rptr. 327 (Ct. App. l 983 ). The court declined
to appoint counsel and then removed the defendant several
times during the trial for mentioning his rack of representation
in front of the jury. ?, 140 Cal.App.3d at 138-39, 189
Cal.Rptr. 327. Specifically, the coiut removed the defendant
during portions of jury selection, his opening statement, and
the testimony of three witnesses. ?, 140 Cal.App.3d at
339, 189 CaLRptr. 327. For two of the witnesses, the court
gave the defendant "59 an opportun% to cross-examine, but
he declined. C3?, 140 Cal.App.3c'l at 139, 189 Cal.Rptr.
327.

! 43 The Ninth Circuit addressed a similar issue its !?
States v. Mack, where the trial court warned a disruptive
defendarit it would remove him and not permit him to q uestion
witnesses if he continued his behavior. 362 F.3a 597, 599

(9th Cir. 2004). After the defendant's inappropriate behavior
continued, the court removed the defendant during his case.
?, 362 F.3d at 599. Once the defendant returned, the court

did not allow him to continue to put on his defense. ?, 3 62
F.3d at 601. Instead, it halted the questioning of any witnesses
and did not allow closing argument by either side. Mack, 362
F.3d at 599. '!n practical effect, [the defendant] had beeri
removed as his own counsel and nobody stepped in to fill the
gap." ?, 362 F'.3d at 601.

*60 T 44 The ? cotu't acknowledged a trial court may
properly remove a disruptive defendant. ?, 362 F.3d at
600. The court held, however, that while a self-represented
defendant's disorderly conduct may forfeit his or her right to
represent themselves and the right to be present, he or she
does not forfeit the right to representation. ?, 362 F.3d at

601 . (a Though a court may remove a defendant for disrupting
trial, '!eaving [a defendantl without representation is still far
from appropriate." M?, 362 F.3d at 60]. The court stated
a trial court comtnits structural error when it prevents a selfrepresented defendant from cross-examiriing witnesses, even
if the defendant was contemptuous of the court. M?, 362
p.ad at 601-603.

'li42 The California Court of Appeal held the court violated
the defendant's Sixth Amendment right when it "deprived
him not only of his own presence, but of legal representation."
C?, 140 Cal.App.3d at 140, 189 C.al.Rptr. 327. As an
alternative to removal, the court noted the trial coiut could
have appointed counsel, instituted contempt proceedings, or

restrained the defendant. C?B?i, 140 Cal.App.3d at 141,
189 Cal.Rpt. 327. The California Coutt of Appeal has
since reaf[irmed ?'s holding. See People v. bmos, s
Cal.App.5tli 897, 907 n.5, 210 Cal.]RpTx.3d 242 (Ct. App.
2016) (holding when a *"543 trial court removes a selfrepresented defendant, the defendant is necessarily deprived
of the Sixth Amendment right to representation during the
absence); p<:oplq v. Soukoinlane, 162 Cal.App.4th 2M, 75
Cal.Rpt.3d 496 (Ct. App. 2008) (noting the court's removal
of a defendant during the direct examination of a state's
witness violated the Sixth Amendment right to counsel).
Other courts have come to the same conclusion. See Pe??
?, 160 P.3(1336, 343 (Colo. App. 2007) (determining the
court violated the pro se defendant's right to counsel when it
removed him during segtnents of his trial).

6

We note proceeding with trial in Davis's absence would
not have been error if he hmi voluntarily absented
himself. See DeWeese, 117 Wash.2d at 379, 816 P.2d
1. Tkiou@s ? does not address the effect of a
voluntary absence on the right to representation, the issue
ms recently before the Rhode Island Supreme Court.
In Stat< v. gddy, a defendant dismissed his attorney
and chose to represent himself. 68 A.3d 1089, 1092
('.RJ. 2013). After the defendant then dismissed two
more attorneys whom the court appointed as standby

counsel, the court denied the defendant's request for
appointed counsel on the morning of trial. Tf?, 68 A.3d
a.t 1092-96. In response, the defcndant told the court, "}
don't want to be in (he courtroom so the trial may proceed
in my absence.... I ask I be allowed to be remoyed from
the courtroom diuing this process because I don't want
to cause a simtion of a forced removal." j?, 68 A .3d
at 1096. The court explained to the defendant he had a
Sixth Amendment right to be present and, if he waived
that right, he would not be represented by counsel and
would also be waiving his right to cross-examination.
]?, 68 A.3d at 1097. The court allowed the defendant

'[MEbT'J%'d%" aJ 2(12(" r')i'T's('r Et:lJ-..+ S N(' "ia 'li t{' -rl- rlml J E ()O e na' -, Thl 'l"(1 ' S

-'7
I

State v. Davis, 6 Wash.App.2d 43 (20! 8)
429 P.3d '534

to leave after he stated he understood the consequences

work the hardest to undermine it." ?, 282 0r. A pp. at 126,

and still did not want to attend. ?, 68 A.3 d at ] 096497.
The Rhode Island Supreme Court agreed the defendant
knowingly and voluntarily waived both his rigbt to be
presenl and right to representation, because he insisted
on leaving trial affer the trial court explained all the rights
he would be abandoning. ?, 68 A.3d at 1103-04.

! 45 In ?Menefee the Oregon Court of Appeals followed
?. 268 0r. App. at 183, 34? P.3d 229. As discussed
above, the trial court in ? characterized the removal
of the defendant as a voluntary absence because it found the
defendant intentionally acted dismptively to undermine the
trial. 5ee Menefee, 268 0r. App. at 168, 34] P.3d 229. In
the defendant's absence, the State examined two witnesses.
?, 268 0r. App. at 169, 341 P.3d 229. The Oregon
court reversed the defendant's conviction, concluding the
trial court violated the Sixth Amendment by *61 failing
to appoint counsel or have the defendant waive his right to
representation before continuing without him. ?, 268
Or. App. at 185, 341 P.3d 229.
! 46 Shortly after ??Menefee the Oregon Court of Appeals
reaffirmed its holding that removing a self-represented
defendant from a courtroom without first appointing an
attorney violates the right to representation. See ?.
?, 282 0r. App. 123, 127, 385 P.3d l 151 (2016). There,
the trial court warned the defendant that, if he disrupted
**544 the trial, it would proceed in his absence. ?,
282 0r. App. at 125, 385 P.3d 1151. The appellate court
rejected the argument that disruptive conduct, in light of such
a warning, led to a proper waiver of the ri ght to representation.
L?y?, 282 0r. App. at 130, 385 P.3d 1151. It held instead
that, to find a valid waiver, the court should have informed

the defendant of his ongoing right to representation, even if
removed for misconduct. 13;g, 282 0r. App. at 130, 385
P.3d 115 ] . Additiorially, it mled the trial court should have
advised the defendant he could have an attorney appointed
to represent him during bis absence. I??, 282 0r. App. at
130, 385 P.3d 1151. The court stated that, if the trial court
cannot obtain a valid waiver, "the court may have to appoint
counsel for a defendant who previously elected to proceed
pro se, notwithstanding the awkwardness of doing so midtrial." ?, 2R2 0r. App. at 126-27, 385 P.3d 1151. The
court explamed its approach as one to protect the structural
integrity of the criminal justice system. ?, 282 0r. App.
at 126, 385 P.3d 1151. "Where a criminal case is tried against
a vacant defense table, the adversarial process has broken
down, and cannot ensure that the convictions rendered are fair
and reliable. Our system strives to be fair, even to those who ...

385 P.3d 1151.

! 47 Earlier this year, the Superior Court of Pennsyivania
concluded a defendant cannot forfeit his right to
representation through misconduct. ?'y
?, 201 8 PA Super 145, 188 A.3d 1288, 1290-92 (2018).
In ??, the trial court removed a self-represented defendant
from trial "62 af?er he acted disniptively diuing jury
selec6on. :?iada, 188 A.3d at 129] . Following the line of
cases from California, the Ninth Circuit, and Oregon, the
appellate court held "[T]he issue of removal is distinct from
the right of representation by counsel, and the related right
of self-representation ." Li?, 188 A.3d at 1293. Concluding
the defendant did not waive his right to representation, the
court rcverscd the conviction and remanded for a new trial.

?, 188 A.3dat 1300.

'1148 In this case, Davis chose to represent himself and then
behaved obstreperously throughout the court proceedings.
The com finally removed him and allowed the State to
examine Officers Antholt and Graf before recessing for the

day. 7 Davis went unrepresented du ring these testimonies
and was not given the opportunity to cross-examine the two
officers. He did not knowingly and voluntarily waive his
right to representation and agree to have an empty defense
table while the State questioned two critical witnesses. This
remains the case despite his decision to represent himself.
As reflected above, cases from other jurisdictions support
this conclusion. We are unaware of authority supporting a
contrary result.
7

We are mindful of the difficult situation posed by
Davis's conduct, especially where there was no directly
applicable Washington case law. We note that trial
courts can explore a number of alternatives in such
situations, including the following: engaging in a
colloquy regarding the right to representation, as the
coiut did in ? to see whether there is a waiver of the
right to representation; recessing, to give the defendant
time to calm down (suggested in ????,Menefee 268 0T. AT)11.
at 185-86, 341 P.3d 229); having the defendant attend
trial via video conference or providing the defendant
with a recording or transcript of the missed testimony
and allowing the defendant the opportunity to crossexamine the wimesses (proposed in ?, 282 0r. App.
at 137, 385 P.3d 1151 (citing ????,Cohn 160 P.3tl at 343) );
restraining defendant in the courtroom (allowed under
?le, 145 Wash.2d 310 at 315, 36 P.3d 1025); or

VWSTLAW ] '=02, T?'i0l-; :( 'l T250k'(l- Th'0 ('l-ln- (( 0t'(, rl;; S 'a-s0}[1 rxrl irl' {AKI{rxS

0
(l

State v. Davis, 6 Wash.ABp.2d 43 (20a!B)
4-ig Th.3cl"5:34

appointing the defendant counsei (advancerl in ?,
140 C'.a).A.pp.3d at 1.41, 189 Cal.Rptr. 327).

possessing a stolen Hyundai vehicle (count 1). Since Davis
was absent only for testimony pertaining to counts 2 and 3,
we see no error and affirm as to count 1.

"[ 49 Accordingly, we conclude leaving Davis without
representation at trial violated his Sixth Amendment right to
representation. Because this error is stnictural, we remand for
a new trial on counts 2 and 3. ? Mack, 362 F.3d at 601-603;
*63 State v. Wise, 176 Wasb.2d ], 14, 288 P.3d 1113
(2012) ("Stmchiral error ... is not subject to harmlessness

trial.

analysis."). 8

Maiu-i, A.C.J., and Verellen, J., concur.

8

Opinion
Reconsideration denied November 20, 2018.

Because we find the trial coiut committed only a single
error, we re3ect Davis's cumulative error argument.

! 50 Davis missed the testimony of Officers Antholt and Graf,
who arrested and searched Davis in relation to his Februaiy
11, 2014 arrest for possessing a stolen Buick vehicle *"545
and crack cocaine (counts 2 and 3). These offxcers, however,
did not participate in Davis's Januaty 23, 2014 arrest for
End of Docutnent

T 51 We affirm in part, reverse in part, and remand for a new

Review granted at 192 %yn.2d 1023 (2019).

All Citations

6 Wash.App.2d 43, 429 P.3d 534
@ 2020 Th0nnson Reuters. No cialm to orfginal U..":i. Governrnerit V40rks.

nEST' AW 'C )'}"l rhc'iit-.)'r r2t) ,tt , i:c i aii?- ':C -yt') lox-it i : (>" a-a 'trhrii ' l ? ; r,

*A

APPENDIX C

'34651052

)
'.k-"

1

FgB,;,D

2

ThiAY 2 a 2017

3

:iUF!?r')JF C()PT CLERK

BY Dawn Tabbs

4

DEPU'TY
s
6

StJPERfOR COURT OF WASHrNGTON FOR KJNG COUNTY

7 10 STATE OF WASHINGTON,

)
)

8

Plaintiff, ) No. 14-1-00794-s SEA
)

9

) F?NDINGS OF FACT AND
. ) CONCLUSIONS OF LAW
) REGARDIG DEFBNDANT

VS.

10 11 KEITH h6.=xia DAVIS,

) VOLUNTARILY ABSENTING

11

Defendant. ) HIMSELF FROM TRIAI?. DUE TO HTS
) DISRUPTIVE BEHAVIOR

12

>

13

A jury trial svas held before Honorable Judge Julie Spector on Febmary 28, 2017 through

14

I! 'A4arch 9, 2017. OLI Marcli 7, 2017, the defendant was removed from the courtroom due to his

1511

11 behavior and t'he trial proceeded despite his absenc.e. Tlie Court made the folloiving findings of

16 11

fact and conclusions of law:
17

18
19
20

21
22
23

24

1. At the outset of the trial, the defendant had reqiiested to have frequent bathroom
breaks 'due to his medical condition. The Court informed him that he wotild be able to

take necessary bathroom breaks as needed. The defendant was also prosiided with a
ful} water pitcher and paper cups.

2. As the trial conunenced, the defendant would frequently announce his need to uge the
bathroom. This would typically occur every ho'ur. At that time, the defendant
appe'ared to be drinking h iiorrnal amount of water.
FJNDn=K3S REGARDING TRIAL
DUE TO DEFENDANT'S BEHAV

wl!?fO[ NA!l

Daiiiel T. Satterbcrg, Prosecuting Altomey
Cr{iriinal Divigion

W554 Kirig Coumy Cc+unhousc
516 aniird Avenue

!SaiL!Ie, WA 98104-2385
(206) 296-9000 FAX (206) 2%-0955

..itli }ia y

')i iN-)a

..<'>r
i

.'l
..ffi

#"

"-?'

.,f
.!

.J"
/

*'

ffi!

I

3. On March 7, 2017, the defendant increased his 'urater intake dramatically. He .

2

consumed multiple pitchers of water during the morning session. The defendant

3

would tl'ien frequently announce his urgent need to use the batlimom. This started to

4

occur esrer9 20 minutes instead of every hour. This would also occur at critical parts

s

during witnesses' testimony.

6

4. When the afternoon session began on March 7, 20'l 7, the defendant asked for more

7

water. 'I'he prosecutor proiiided him with the additional pitcher of water that was on

8

the prosecutor's side of the table. Shortly thereafter, tl'ie defendant again loudly

9

amiounced his urgent need to use the restroom. The jury was brought back into the

10

11

jury room and the jail officers took the defendant to tl'ie restroom.
s. When the defendant returned, the Couit iiifonned the defendant that he would not be

12

provided any more water, as he had already had a substantial amount and there was

li

only one witness remaining for the day.

14

6. Further, the Court informed the defendant that taking restroom breaks every 20

15

minutes was causing a substantial delay to the trial and that becarise there was only

16

one witness remaining, trial wo?ild be done for the day very soon and the defendant

17

would be abfe to return to the jail and have all the water he would like.

18

7. The defendant began an explosive tirade of expletives, pou'nding on the table with bis

19

fists, and yelling at an extremely loud volume. While yelling at top voluxne, tl'ie

20

defen,dant accused the Court of violating the 8"' Amendment and that he needed water

21

due to his medical condition. He also repeatedly used curse words and at one point

22

screamed, "H**k you, Spector!" to the. Court.

23
24
Daiilel T. Satterbcrg, Pmseculing Altorney

FINDINGS RBGARDING TRIAL iN ABSENTIA

DUE TO DgFENDANT'S BEHAVIOR- 2

Crirninal Division

W554 King Coimty Couithouse
s 16 T)iii Avenue
Saittle, IVA 98 104-2!85

(206) 296-9000 FAX (206) 296-0955

,<t!.i*i,

=-]

?

]
'%?"

J'

.1
f

!

1
2
3

8. The Court warned him that if he was going to cotxtinue to raise l'ffs voice and curse at
tlxe Court, then he 'would be removed from the courtroom.

9. The defendant continued to interrupt the Coutt, yell at the top of his lungs, curse, arid

4

pound the table. The volume was such that the Court was unable to gpeak over him.

s

The volume was also so lorid that the jury undoubteidly heard the defendaiit's tirade.

6

Further, the courtroom across the hall (which was in session in a murder trial) xvas

7

forced to recess because tl'ie parties were unable to hear their own witness due to the

8

defendant's volume.

9

] 0. Tlie Couit then'ordered the jail officers to remove him from the courtroom. The

10

officers did so. The defendant coxitinued to ycll at top volume as the officers escorted

11

him out of the courtroom and down the hallway.

12

11. Tlie Court.ordered the trial to continue in his absence finding that he had voluntarily

13

absented himself. The prosecutor fi4xished up the witness's testimony arid tl'ie (;ourt

14

recessed for tl'ie afternoot'i.

15

12. The defendant was brought down for trial the ncxt morning and the Cotut warned him

16

about his behavior? The Court infon'iied him that if he continued to behave that way,

17

he would again be removed from the courtroom and trial would proceed ip his

18

absence.

19

13. The Couit foiu'id that the defex'idaiit deliberately doubled his water iritake. The Court

20

pointed out that his bathroo'in urgency increased from every hour to every :?.0 minutes.

21

The Court pointed out that in the beginning days of the trial, the de.fendant did not

22

drii'ik nearly as much water arid did not have nearly as n'iany batlu'oom breaks.

23

24

FINDrNGS REGARDING TRTAL ]n'J ABSENTTA
DUE TO DEFENDANT'S BEHAWOR- 3

Dii-n}el T. Satterberg, Pmsecuting A{tomey
Criminal Division

'iV554 Kjng County C.ourlhouse
516 a?litm Aveime

Semttle, lVA9)1104-23&5 ,
(206)296-9000 FAX(206)296-0955 .

t ' 91

? a.A"

i"%

.t='

l'

??+d"'

=*
?*

.}J
?'

f

/

1

2

3

4

. 14. The Court also found tl'iat wl'ien the defendant,would annotince he needed a bathroom
break, tl'ffls iiitermption wouJd always occur either during a critical part ofa witness's
testimony or when it wiam his time jo cross exaanine a witness.

15. The Court found that the defendarit intentionally did this to delay the proceedmgs and

s

that tbis was a tactical decision by the defendant. The Couxt found t'l'iat the defendant

6

had done everything he could to delay the trial.

7
8

16. The Court also?pointed out that the defendaiit's behavior was one of the worst
e:xchanges the Court had seen. The Court agairi uiamed him that he l'iad one more

to

opportunity. to participate in his own trial and there would be no more disruptions.
The defendmit stated he understood and did not have an>i further behavior issues of

11

significance. Trial was able to proceed in the defer2dant's presence.

9

12
13

In addition to the above written findings and conclusions, the Court incorporates by

' 14 jt reference its oral findings and conclusions regarding all materials herein.
15

Signedtbis E? dayofAlU20l7.

16

7,#

17

?"%,S '

JUD(T

18
19

20 11 Presentedby:
21
22

23 11Deputy
!liyan C,.Prosecuting
AndeTon,.'Attorney
M.7SBA# 46974
24

Dniiiel T. Saherberg, Pmsecuting Alinmey

FrNDn%K3S REGARDING TRIAL iN ABSENTIA
DUE TO DEFENDANT'S BE!4AVIOR- 4

Criminal Division

W554 King Coiinty Counhousc
516 Thinl Avenue

Seattk,WA9)1104-2385

(206) 296-9000 FAX (206) 296-0955

4

11,,'l.'

